<html>
<title> - PERSPECTIVES FROM THE DHS FRONTLINE: EVALUATING STAFFING RESOURCES AND REQUIREMENTS</title>
<body><pre>[Senate Hearing 115-159]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-159
 
                  PERSPECTIVES FROM THE DHS FRONTLINE:
             EVALUATING STAFFING RESOURCES AND REQUIREMENTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             MARCH 22, 2017

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     





                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-014 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001    

        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
          Brooke N. Ericson, Deputy Chief of Staff for Policy
           Jose J. Bautista, Senior Professional Staff Member
               Margaret E. Daum, Minority Staff Director
                  Caitlin A. Warner, Minority Counsel
              J. Jackson Eaton IV, Minority Senior Counsel
                Hannah M. Berner, Minority Investigator
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Lankford.............................................    17
    Senator Carper...............................................    20
    Senator Tester...............................................    22
    Senator Heitkamp.............................................    25
    Senator Harris...............................................    29
    Senator Hoeven...............................................    32
    Senator Daines...............................................    35
Prepared statements:
    Senator Johnson..............................................    41
    Senator McCaskill............................................    42

                               WITNESSES
                       Wednesday, March 22, 2017

Brandon Judd, President, National Border Patrol Council 
  (testifying on behalf of Border Patrol Agents, U.S. Customs and 
  Border Protection).............................................     5
Anthony M. Reardon, National President, National Treasury 
  Employees Union (testifying on behalf of Office of Field 
  Operations Officers, U.S. Customs and Border Protection).......     7
Chris Crane, President, National Immigration and Customs 
  Enforcement Council (testifying on behalf of Enforcement 
  Removal Operations Officers, U.S. Immigration and Customs 
  Enforcement)...................................................     9

                     Alphabetical List of Witnesses

Crane Chris:
    Testimony....................................................     9
    Prepared statement...........................................    64
Judd, Brandon:
    Testimony....................................................     5
    Prepared statement...........................................    47
Reardon, Anthony M.:
    Testimony....................................................     7
    Prepared statement...........................................    51

                                APPENDIX

Photo referenced by Mr. Reardon..................................    63
Chart submitted by Senator McCaskill.............................    70
DHS Memorandum submitted by Senator McCaskill....................    71
American Association of Port Authorities Statement for the Record    77
U.S. Customs and Border Protection Statement for the Record......    79
National Immigration Forum Statement for the Record..............    86
Responses to post-hearing questions for the Record
    Mr. Judd.....................................................    93
    Mr. Reardon..................................................   100
    Mr. Crane....................................................   106


                  PERSPECTIVES FROM THE DHS FRONTLINE:



             EVALUATING STAFFING RESOURCES AND REQUIREMENTS

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Hoeven, Daines, 
McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, and 
Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to thank our witnesses for taking the time to 
testify and for taking the time to write your testimonies, 
which I think were very interesting and provided a lot of good 
information that we are going to need as we try and develop 
policy to secure our border and properly enforce our 
immigration laws.
    Now, 3 weeks ago, we held a hearing, ``The Effects of 
Border Insecurity and Lax Immigration Enforcement on American 
Communities.'' We had witnesses telling some pretty grim 
stories. Julie Nordman's husband, Randy, was the fifth--the 
last person killed in a five-person murder spree. Jill Marie 
Sundberg was brutally murdered up in Washington State. We all 
know the well-publicized case of Kate Steinle. Unfortunately, 
in the intervening period, another horrific case has come to 
mind.
    Now, I will be the first to acknowledge crimes are 
committed--horrific crimes--by U.S. citizens. There is no doubt 
about that. But, it is small comfort to the family of Kate 
Steinle, to Julie Nordman and her family, and to the family of 
the other victim in Washington that, well, American citizens 
commit crimes, too. Their family members were murdered by 
people in this country illegally, because we have not, in many 
cases, enforced our immigration laws.
    The most recent horrific example--and I am going to read 
just segments. I can only read segments of this news story 
about a 14-year-old girl at Rockville High School in Rockville, 
Maryland. Jose Montano, a 17-year-old from El Salvador, and 
Henry Sanchez-Milian, an 18-year-old from Guatemala--here is 
the account: ``The victim, the 14-year-old girl, was walking in 
a school hallway when she met two male students identified as 
Montano and Sanchez. They forced her into a boys' bathroom and 
then into a stall. Court records describe the merciless and 
brutal assault by both Montano and Sanchez, who allegedly raped 
the young girl multiple times.''
    According to U.S. Department of Homeland Security (DHS) 
databases, an agent from the U.S. Border Patrol (USBP) stopped 
Sanchez-Milian in August of 2016 in Rio Grande Valley (RGV), 
Texas, and determined he had entered the country illegally from 
Mexico. That was in August of 2016. He was ordered to appear 
before an immigration judge, but the hearing had not yet been 
scheduled. That is just a fact. There is another victim--and a 
victim because we failed to enforce immigration laws.
    The purpose of this hearing, now, is to hear from those of 
you who are on the front lines. This is about laying out the 
reality that you are facing, in terms of having proper staff--
proper allocation of staff. And, today, we have three 
witnesses. And, I will introduce each of you prior to your 
testimony, but we obviously have somebody from Border Patrol. 
We have a witness with 20 years of experience, by the way--
boots on the ground. We also have a witness from the United 
States Customs and Border Protection (CBP) Office of Field 
Operations (OFO). So, Border Patrol is between the ports. 
Office of Field Operations is the ports of entry (POEs). And, 
by the way, that is 25 years of experience with that 
individual. And, we have another witness from U.S. Immigration 
and Customs Enforcement (ICE)--14 years of experience enforcing 
our laws in the interior. These are gentlemen that have been in 
these positions over multiple Administrations and that can tell 
us exactly what has happened over time, where we are today, and 
what we need to do to effectively enforce our immigration laws 
and try and keep our homeland safe.
    So, again, I want to thank the witnesses. I appreciate your 
testimonies. I am looking forward to it. And, with that, I will 
turn it over to our Ranking Member, Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you. I would ask for my formal 
opening statement to be made part of the record,\1\ Senator 
Johnson, if I could.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 42.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    And, can I ask to have mine\2\----
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    Senator McCaskill. Absolutely.
    Chairman Johnson. Thank you.
    Senator McCaskill. Let me just riff for a moment.
    First of all, thank you all for the work you do. As a 
former prosecutor for a lot of my career, I was honored to work 
shoulder to shoulder with law enforcement--and I understand the 
duty you have, the risks you take, and the sacrifices that both 
you and your families make. And, it is important to note that 
you are here, representing many more just like you, in your 
roles as officers in your unions. I am proud to see union 
leaders at this table--especially public-sector union leaders.
    There has been a war on public-sector unions in my State, 
and I do not get it. I think you all see the value of being 
able to represent the front line in an organized way, where 
their voices can be heard. And, I appreciate that very much.
    All of us want to secure the border. The question is not 
whether or not we want to secure the border or whether or not 
we all agree that crimes committed by anyone, including people 
who are not in this country legally--we have to do everything 
we can to prevent them. The question is: How do we do that? The 
question is: What is the right strategy to really get at this 
problem?
    And, what I would like to hear today is, whether or not 
what is being proposed is, in fact, the right strategy and 
whether we have put enough time into the analysis of the right 
strategy, going forward.
    For example, I was down on the border. I was in McAllen, 
Texas, and I spent time with dozens and dozens of Border Patrol 
agents (BPAs). And, every single one of them--I asked them--
frontline folks, not--I mean, the management were all hovering. 
That is another question. I think you guys are way too 
management heavy. I just do not think there is any question 
that you have way too many managers and not enough frontline 
folks. And, I kept asking them, ``What do you need?'' And, time 
after time, I heard the same things.
    I heard, ``Lateral roads--access--so that, when our 
technology identifies, we can get there.''
    I heard about technology. I was blown away by the fact that 
the Border Patrol had figured out how to jury-rig a night 
vision set of goggles on a pickup truck with an arm that 
extended it up. Now, they did not buy this off of the shelf. 
They kind of designed 
it--you guys kind of designed it, yourselves, in order to get 
eyes up above, when the floating eyes cannot fly, for whatever 
reason, or for the fact that the topography down there really 
needs eyes 
up above. The idea that you all are having to jury-rig this 
together--rather than getting the latest technology that is 
available.
    And then, I heard that you do not even have enough 
bandwidth at the processing center in McAllen to use the kiosks 
that we bought.
    So, I hear all of these things, and then I try to figure 
out why a wall across the entire border. I did not have one 
border agent tell me that we needed a wall across the entire 
border. I think I was told 55 more miles in that sector would 
be helpful--or 75 more miles would be helpful, but not across 
the entire border.
    I also want to know: Why 10,000? Why 5,000? Who did this 
analysis? Why do we not restructure or get rid of some of the 
managers? We cannot even hire the ones that are authorized now. 
We are not even at full capacity for the ones that are 
authorized.
    So, it does not seem like, to me, that either the wall or 
the number of people that are being requested in the budget has 
undergone the kind of scrutiny that it would go through in the 
private sector--the kind of analysis to really determine what 
is the most efficient and effective way to deploy our resources 
to help you all and to give you the support you need. And, that 
is what I want to try to dig into today.
    I am disappointed no one from the Department of Homeland 
Security is here, today, because we are being asked, right at 
this moment--I know the Chairman says that it is early and that 
it is too early to get them here--and he has not joined me in 
inviting the officials from the Department of Homeland Security 
to these hearings. But, they are asking for billions of dollars 
right now in the supplemental, and I think these questions need 
to be posed to them--not just questions posed to you all, who 
are in the important job of representing your membership, in 
terms of the voice of your union members, to management, within 
your specific operations.
    And, finally, I will close with this: The notion that the 
number-one killer in our country--more than car crashes and 
more than homicides--is, in fact, opioids--the notion that we 
are going to hire 15,000 more agents, for both ICE and Border 
Patrol, and we are going to leave the ports uncovered--all that 
is going to do is squeeze all of those drugs to the ports--and 
you guys know it. But, they are not requesting any officers to 
go to the ports. And, they are cutting the U.S. Coast Guard 
(USCG) to build the wall.
    Now, if this is about getting the opioids--the deadly 
poison that is killing our country--in addition to securing the 
border--and securing the border does not just mean illegal 
people coming across. It also means drugs. It does not appear 
to me that this is a well-thought-out plan. It appears to me 
that this is political and not solid policy. And, I look 
forward to the chance to question you about that and get your 
responses to that. I know what you guys want. You want the 
resources you need. I want to help you get those. I just want 
to make sure we are not engaging in campaign promises instead 
of policy that will actually secure the border and take the 
money away from the cartels that are making as much money on 
the peso as they are making on drugs right now, in terms of the 
per head tax that people pay to get the illegals--the smugglers 
pay to get through those various cartel territories--I want to 
get after that.
    And, the Drug Enforcement Administration (DEA) is also, I 
assume, going to be cut, because the U.S. Department of Justice 
(DOJ) is being cut. So, it just does not make sense to me--that 
the policies have been well thought out, and I look forward to 
questioning you about that.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill. And, of 
course, that is the purpose of this hearing--to scrutinize 
these proposals, so that Congress is well informed and so that 
we can actually work with the Administration to actually secure 
the border and enforce immigration laws. So, I am completely 
flexible, in terms of my approach. I want to see what works.
    Senator McCaskill. Well, I would love it--if it is about 
the policies, it would be great to question the people who are 
setting the policies.
    Chairman Johnson. And, I was just----
    Senator McCaskill. And, the next hearing, on the wall--once 
again, I have asked DHS to come as the Minority witness, and 
you have not joined me in the invitation to have the Department 
of Homeland Security here to talk about the wall. And, I do not 
understand how we can get at questioning the policies if we do 
not have people at the table that are responsible for the 
policies.
    Chairman Johnson. Having solved a lot of problems, you 
first lay out the reality, which is what we are doing here in 
these hearings. I think this is our 20th or 21st hearing on 
border security--laying out the reality--and, of course, as I 
think you are aware, the Secretary of Homeland Security will 
then be here the day after our hearing on the wall and the 
fencing. So, you will have your chance. And, we are going to 
give the Secretary a chance to also get prepared to testify 
before the Committee.
    So, again, we are laying this out in a very organized 
fashion. We are going to lay out the truth. We are going to lay 
out the reality and, hopefully, then design policies that will 
actually work once and for all, in terms of securing our border 
and enforcing our immigration laws.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand, I 
would appreciate it. Do you swear that the testimony you will 
give before this Committee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Judd. I do.
    Mr. Reardon. I do.
    Mr. Crane. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is Brandon Judd. Mr. Judd serves as the 
president of the National Border Patrol Council (NBPC). Mr. 
Judd joined the Border Patrol in 1997 and served in multiple 
positions at the Northern and Southwest borders. Mr. Judd.

TESTIMONY OF BRANDON JUDD,\1\ PRESIDENT, NATIONAL BORDER PATROL 
  COUNCIL (TESTIFYING ON BEHALF OF BORDER PATROL AGENTS, U.S. 
                 CUSTOMS AND BORDER PROTECTION)

    Mr. Judd. Chairman Johnson and Ranking Member McCaskill, I 
really appreciate the opportunity to testify before you today. 
I am going to go off script. You have my written testimony, 
but, based upon the comments that you gave today, I would like 
to speak to that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Judd appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    Senator, had we have done our job, that 14-year-old girl 
would have never been raped. Period. That is all there is to 
it. Had we have held those individuals in custody--or that one 
individual in custody, pending a determination on whether that 
person should be allowed to remain in this country, that rape 
would not have happened.
    We failed the citizens of this great Nation by not securing 
the border. Not only did we have the ``catch-and-release'' 
program that completely and totally demoralized the rank-and-
file agents in the Border Patrol, but we also had an arrest 
rate where, for one out of every five individuals that crossed 
the border illegally, we only arrested one out of every two. We 
only had a 50-percent effectiveness rate. That is a problem. 
So, not only were the individuals that we were actually 
arresting--not only were we releasing those individuals, but we 
were only apprehending one out of every two that were crossing 
the border illegally.
    There is no private company in the United States that can 
operate and be successful if they have a 50-percent success 
rate. They would go out of business. Senator, you were in the 
private sector. Your business would have--I have to assume that 
your business would have gone under if you only had a 50-
percent effectiveness rate.
    As far as the wall goes, Senator McCaskill, I agree with 
you 100 percent. We do not need a great wall of the United 
States. We do not need 2,000 miles of border wall. I will tell 
you, however, that a wall, in strategic locations, is 
absolutely necessary. The fencing that we currently have can be 
defeated. Anybody can come up to that fence with a welding 
torch and cut a hole in it. In fact, they have. I, personally, 
was assigned to find holes in the fence. My brother was 
assigned for 3 years to patch holes--as a Border Patrol agent--
to patch holes in the fence--and that was a daily activity that 
he was doing. So, yes, we absolutely have to have a barrier 
that cannot be defeated. And, if we do a wall--and we do it 
properly--on the border, we can, in fact, effectuate a better 
arrest rate. We can, in fact, secure the border. I am 100 
percent positive that that can happen.
    Before we do that, we have to address the current issues 
that we have. According to CBP's own figures, in order to bring 
Border Patrol up to the Congressionally-mandated floor--add 
5,000 new agents and account for historical 6-percent rate of 
attrition--the Border Patrol will need to hire over 2,700 
agents every year for the next 5 years. The 6-percent 
attrition--we lose over 1,000 agents per year because they do 
not like to work for the Border Patrol. We have seen a huge 
increase in morale since November 8th, and that increase in 
morale has been based upon the promise that we will be allowed 
to enforce the laws the way the laws were written on the books. 
And, that morale is going to be contingent upon whether or not 
we do, in fact, enforce the laws properly. But, it is also 
contingent upon whether or not we fix the problems that we have 
had in the past.
    The first and foremost problem that we have had is, we do 
not have pay parity with other law enforcement Agencies. Even 
though I am a General Schedule (GS)-12 and an ICE agent is a 
GS-12, the ICE agent gets paid more, because they have Fair 
Labor Standards Act (FLSA) overtime. We do not. And, that 
overtime was cut due to management--the illegal use of the 
Administratively Uncontrollable Overtime (AUO) by management in 
2014. And so, we have to address pay parity. And, if you are 
looking at seriously securing the border and if we are looking 
at a comprehensive border security bill, we have to look at how 
we can bring back parity in pay with our sister Agencies. 
Otherwise, you are going to see a mass exodus. When ICE starts 
hiring, you are going to see a mass exodus of Border Patrol 
agents over to ICE--and that is the last thing that I want to 
see.
    We also have to fix the morale problem. If we look at it 
and we say that morale is strictly contingent upon enforcing 
the laws, we are going to miss all of the indicators of the 
past 20 years. We have enforced the laws before. We enforced 
the laws under the George W. Bush era and the Bill Clinton era. 
Yet, we still had a 6-percent attrition rate. So, we have to 
look at the underlying reasons for that--and we have to address 
that.
    I really look forward to answering your questions. I want 
to bring out what the frontline agents have seen every day to 
address the opioid issue. Senator McCaskill, I was a K-9 
handler. I have seen, firsthand, exactly how the drug problem 
works. But, we are talking about Border Patrol agents in the 
field. And, you brought up that we are talking only about areas 
between the ports of entry. We are currently deploying Border 
Patrol agents to the ports of entry. It makes no sense. It 
absolutely makes no sense. We should not be using Border Patrol 
resources at the ports of entry. We need to address that issue 
and look at that and say, ``OK, if we are going to get 5,000 
agents to the Border Patrol, we also have to address the port 
of entry issue as well, because, otherwise, we are only 
addressing one small part of the problem.''
    But, Senator McCaskill, as a K-9 handler, I can tell you 
that the drugs that are coming across our border--we do not 
even have a minute handle on what is happening across our 
borders, as far as the drugs go. And so, we have to address 
those issues as well.
    I appreciate the time, and I look forward to answering your 
questions. Thank you.
    Chairman Johnson. Thank you, Mr. Judd. And, I saw Mr. 
Reardon shaking his head when you said that we need to have 
more staff at the ports of entry, which I think we all agree 
on.
    Our next witness is Mr. Anthony ``Tony'' Reardon. He is the 
president of the National Treasury Employees Union (NTEU), 
where he represents the Office of Field Operations. Those are 
agents at the ports of entry. During his time with the 
organization, Mr. Reardon has worked on initiatives to increase 
staffing levels at air, sea, and land ports of entry. Mr. 
Reardon.

    TESTIMONY OF ANTHONY M. REARDON,\1\ NATIONAL PRESIDENT, 
  NATIONAL TREASURY EMPLOYEES UNION (TESTIFYING ON BEHALF OF 
 OFFICE OF FIELD OPERATIONS OFFICERS, U.S. CUSTOMS AND BORDER 
                          PROTECTION)

    Mr. Reardon. Chairman Johnson and Ranking Member McCaskill, 
thank you for the opportunity to testify on behalf of over 
25,000 frontline CBP employees at 328 U.S. air, sea, and land 
ports of entry and at preclearance operations overseas.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Reardon appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    There is no greater roadblock to legitimate trade and 
travel efficiency and to stopping illicit trafficking in 
people, drugs, illegal weapons, and money than the lack of 
sufficient staffing at ports. The current CBP officer shortage 
is indeed staggering. There is a vacancy rate of nearly 1,400 
funded CBP officers at the ports. And, according to CBP's own 
workload staffing model, an additional 2,100 CBP officers must 
be funded and hired in order to meet 2017 staffing needs. A 
total CBP officer staffing shortage of 3,500 exists today.
    The economic cost of this shortage is staggering as well. 
For every 33 additional CBP officers hired, the United States 
can potentially gain over 1,000 private sector jobs. 
Understaffed ports lead to long delays in travel and cargo 
lanes and result in a significant hardship for frontline 
employees. Both involuntary overtime and involuntary work 
assignments far from home destroy morale and disrupt the lives 
of CBP officers.
    One factor hindering CBP hiring is the high failure rate of 
the polygraph. NTEU is working with CBP and Congress on 
improving the process. This poster\1\--and I believe you all 
have a picture as well--shows a typical day at the San Ysidro, 
California port of entry. As you can see, there are 26 primary 
vehicle lanes, with up to 2 booths at each lane--a total of 50 
booths. Approximately 60,000 vehicles and 25,000 pedestrians 
apply for entry each day.
    In the photo insert, you can see the pedestrian crossers. 
Today, this port has over 350 CBP officer vacancies. By the 
summer of 2019, this port will expand to 32 lanes, with 62 
booths. But, the proposed fiscal year (FY) 2018 budget 
recommends no funding to hire any additional CBP officers for 
this or any other of the Nation's 328 short-staffed ports of 
entry. Imagine working up to 16 hours a day here, for days on 
end, with no relief in sight.
---------------------------------------------------------------------------
    \1\ The photo referenced by Mr. Reardon appears in the Appendix on 
page 63.
---------------------------------------------------------------------------
    An example of the negative impact staffing shortages have 
on CBP officers can be found at San Ysidro and Nogales, 
Arizona, where CBP has instituted involuntary temporary duty 
assignments (TDYs). Forced TDYs, caused by ongoing staffing 
shortages, undermine employee morale and overall recruitment 
efforts, because the very best recruiters should be CBP 
officers.
    Just last week, I heard from a female officer at a Texas 
airport who has been involuntarily assigned to a 90-day TDY 
assignment in Arizona. Her husband works for ICE and, at times, 
has to go on TDYs, himself. They have small children, and if he 
is called for a TDY while she is in Arizona, they are going to 
be in a significant bind. CBP has refused to give this CBP 
officer an excusal from this involuntary TDY. And, based on 
experiences such as this, many officers would not encourage 
their family members or friends to seek employment with CBP. 
Neither the President's January Executive Order (EO), nor the 
President's FY 2018 budget request, include any new funding to 
meet CBP's staffing needs at the ports of entry. This is 
despite the fact that CBP officers at the ports of entry, in 
2016, encountered over 274,000 undocumented immigrants as well 
as seized over 600,000 pounds of illegal drugs and over $62 
million in illicit currency--while processing over 390 million 
travelers and $2.2 trillion in imports through the ports.
    Both CBP and Congress need to step up. It is critical that 
CBP fix its broken hiring process, which has delayed the hiring 
of the 2,000 officers funded in 2014. And, if Congress is truly 
serious about job creation, it should fund the hiring of the 
remaining 2,107 CBP officers and the 631 agriculture 
specialists--identified in CBP's 2016 workload staffing model--
in order to address the ongoing CBP staffing shortages.
    Thank you very much, and I look forward to answering your 
questions.
    Chairman Johnson. Thank you, Mr. Reardon. I think we would 
ask ICE not to steal from Border Patrol, but I understand 
exactly what is--I understand that. Again, I think that is a 
really good issue to point out here.
    Our final witness is Christopher ``Chris'' Crane. Mr. Crane 
currently serves as the president of the National Immigration 
and Customs Enforcement Council. He joined U.S. Immigration and 
Customs Enforcement in 2013, and has served as an immigration 
enforcement agent and a deportation officer. Mr. Crane.

 TESTIMONY OF CHRIS CRANE,\1\ PRESIDENT, NATIONAL IMMIGRATION 
   AND CUSTOMS ENFORCEMENT COUNCIL (TESTIFYING ON BEHALF OF 
 ENFORCEMENT REMOVAL OPERATIONS OFFICERS, U.S. IMMIGRATION AND 
                      CUSTOMS ENFORCEMENT)

    Mr. Crane. Good morning, Senator Johnson and Ranking Member 
McCaskill. President Trump and DHS Secretary John Kelly have 
been unapologetic in their commitment to enforce the laws 
enacted by Congress. We believe that the recent statistics 
released by CBP, showing a sharp decline in illegal entries, is 
a direct result of their leadership--and that illegal entries 
will continue to decline if strong interior enforcement 
continues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Crane appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    While many have tried to make the strategy for stopping 
illegal immigration a complicated matter, it is not. Border 
security must continue. But, in addition to that, the United 
States must enforce its laws on the interior of the country 
and, as a Nation, send a very clear message to the rest of the 
world that illegal entry into the United States--and overstay--
will not be condoned or permitted. The United States must stop 
dangling a carrot, drawing people into this country and 
encouraging them to violate U.S. laws. Interior enforcement is 
key to border security.
    During my career at ICE, I have never had the opportunity 
to commend a sitting U.S. President or DHS Secretary. Today, I 
am here to do just that. Amidst all of the hammering from the 
media and the protests from special interest groups, President 
Trump and DHS Secretary John Kelly have not waivered, but, 
instead, continued steadfast in their support of the rule of 
law and our officers in the field. If they continue that 
course, we believe countless lives will be saved, and the 
victimization now seen so often--as the result of illegal 
immigration--will dramatically decline.
    We need more officers and staff in ICE Enforcement and 
Removal Operations (ERO). Currently, ERO has around 5,000 
officers to police approximately 11 million illegal aliens, as 
well as millions of other lawfully admitted foreign nationals, 
nationwide. We are set up for failure from the word ``go.''
    We enthusiastically support the additional officers 
identified in President Trump's Executive Order on interior 
enforcement. However, we have little faith in the ability of 
ICE leadership to most effectively implement the additional 
staff. As staffing increases are considered and planned, ICE 
leadership should be thinking outside of the box and 
innovating, looking at new ways to have our officers do less 
paperwork and data entry and more law enforcement. However, 
from what we have seen thus far, that is not happening. No 
changes, no innovation, and no improvements. Business as usual.
    While there is no question that morale within ICE is at the 
highest that it has been for many years, the President's 
emphasis on enforcing the Nation's laws will not completely 
solve the overall morale crisis within the Agency. As with DHS 
in general, ICE is suffering from a toxic and failed management 
culture--an absolute absence of leadership. In 2014, ICE was 
dead last in morale among 314 Federal Agencies surveyed. In 
2015, ICE was second from last--and, last year, sixth from 
last.
    ``Screw up and move up'' is the general term used by many 
ICE employees to describe their supervision. Most employees 
have no trust in DHS and ICE internal affairs offices to 
effectively carry out investigations against ICE supervisors. 
At ICE, it is a ``good ol' boy network'', in which supervisors 
cover for supervisors, and only rank-and-file employees are 
held accountable. Supervisors are permitted to harass, 
discriminate, and retaliate at will. Established in 2003, ICE 
has practically no policies. The Agency generally depends on 
Immigration and Naturalization Service (INS) policies from 20 
years ago or more--or they just have no policy at all. Law 
enforcement officers within ICE generally do not believe they 
have the full support of ICE leadership in carrying out the 
Agency mission.
    During the last 8 years, ICE employees and officers have 
been publicly demoralized by their own government. These 
actions continue as ICE officers and their arrest activities 
are incorrectly portrayed and described publicly, in the media, 
by political pundits as ``gestapo'' tactics and other Nazi 
references. It is pretty hard every day to maintain morale when 
your own government and the media turn on you for enforcing the 
laws enacted by Congress.
    Perhaps more importantly, this rhetoric places the safety 
and lives of our officers at risk. When our Nation's lawmakers 
and government show no respect for the rule of law and the 
officers who enforce it, criminals feel empowered to become 
resistant and aggressive--and likewise lose respect for law 
enforcement officers.
    At the Congressional level, our officers and employees 
desperately need your support. We need your support in terms of 
additional officers, staff, and equipment, but we also need you 
to support the rule of law and the officers who enforce it. 
Everything you say and do has consequences. Talk of amnesty 
will create another run on the border. Disparaging comments 
about our officers will put their safety at risk.
    We can significantly stop the flow of illegal immigration 
into the United States--and with it much of the needless death 
and victimization that accompanies it--if we have the support 
of our government in supporting its laws.
    Thank you, and that concludes my testimony.
    Chairman Johnson. Thank you, Mr. Crane.
    First of all, I think I speak on behalf of everybody at the 
dais here. We do recognize that, just like policemen and 
firefighters, the men and women that work in your Agencies are 
putting their lives at risk and putting themselves on the line, 
trying to enforce our laws--so we certainly want to thank you 
for that.
    And, that brings up my first question. Mr. Judd, a recent 
report by Border Patrol said that attacks from October 2016 
through February 2017 are up, involving weapons, projectiles, 
and close-quarter fighting--in other words, violent attacks 
against Border Patrol agents are up 179 percent. Can you just 
give me your feeling on why that is?
    Mr. Judd. Yes. When we empower individuals to believe that 
they can, in fact, break our laws and there are no consequences 
to that, what we do is, we escalate the violence that exists on 
the border. I believe that figure that you just mentioned came 
out yesterday from the Rio Grande Valley. Assaults on Border 
Patrol agents are up by 150 percent, over this same time last 
year. And, again, what we have done, unfortunately, is, our own 
Federal Government has empowered criminals to feel that they 
are untouchable, that they can come to our country and do what 
they want to do, and that they can act with impunity to what 
the laws actually are.
    Chairman Johnson. Mr. Crane, we have heard, repeatedly--and 
I am, quite honestly, shocked, coming from the private sector--
the retaliation from management across the government--and 
certain Agencies are worse than others. There is obviously a 
real problem with management within these Agencies. What is 
your solution? I mean, if you have to clean house, how 
thoroughly do you have to clean house?
    Mr. Crane. Well, sir, thank you for the question. First of 
all, I would like to add to what Mr. Judd said--that I do not 
know that ICE collects the data, but we have been saying this 
for years. And, we have testified on this. Under the Obama 
administration, we have absolutely seen the aggression and the 
assaults against our officers climbing as well. It is out of 
control. So, I just wanted to make sure that we had that in 
there.
    I think what law enforcement, in general, in the country is 
now experiencing is what we have been feeling for a long time. 
When your government does not support you, the people sense 
that, and they cease to respect your authority.
    In terms of what do we do about our management problem, I 
do not think it is rocket science. And, I am not stealing 
something here from President Trump, because we have been 
saying it for years to every Director and every DHS Secretary 
that comes in. We need somebody to come in and say, ``There is 
a new sheriff in town and it stops now.''
    Chairman Johnson. What stops?
    Mr. Crane. The retaliation--just the activities of 
management, in general. I actually talked to Secretary Kelly 
about this last week. We need some of that U.S. Marine Corps 
(USMC) leadership tradition brought over to our Agency--
leadership by example. Leaders are held to higher standards--
accountability--and really do it. I mean, right now, it is like 
a ``good ol' boy network,'' Everybody knows it is going on. A 
lot of people have stopped reporting it. But, even when it is 
reported, nothing is done about it. And, it has to start at the 
top. And, I know this may sound like a simplistic answer, but, 
give me the keys to the house, and I will show you what it 
takes to fix the Agency. And, that is what it is. We have to 
have a boss that comes in and starts--we need policies. We have 
no policies to even follow. That is half of the problem. But, 
the other problem is--again, it is this ``good ol' boy 
network.'' And, it has to go away.
    Chairman Johnson. Well, again, a ``good ol' boy network'' 
is populated by ``good ol' boys.'' And, how many ``good ol' 
boys'' are we going to, literally, have to send packing? And, I 
think the other part of that question, too, is--because I think 
we all recognize this--we see the statistics--the number of 
agents on the ground--the ratio of that to management has grown 
significantly over--I do not know what time period. Talk about 
both of those.
    Mr. Crane. We are tripping over managers out in the field. 
And, we have been saying this for a long time. And, when we 
speak to ICE about it, one of the few things that they seem to 
talk to us about, and actually track--they are in complete 
agreement that they have way more managers. But, it does not 
seem to stop them taking--they will take two officer positions 
and make another management position out of it. And, they just 
keep doing it.
    Chairman Johnson. So, what caused that? Kind of go to the 
root cause. And, this is true across all three agencies, 
correct? We are management top heavy? So, when did this process 
begin? What caused it? Because, I think if we identify that, it 
is going to be easier to solve it.
    Mr. Crane. Sir, I do not know if I can speak to what caused 
it, because I do not think it is necessary. I think it is 
management that is a little out of control, that does not have 
enough oversight, and that is just kind of running amok.
    Chairman Johnson. Mr. Reardon, can you comment on that?
    Mr. Reardon. Well, in terms of when it started, what I can 
tell you--to kind of help add some information about that--is 
that, around 2000--at least in OFO, my understanding is--if I 
have these numbers correct--that there was one supervisor to 12 
frontline employees. And now, that number has changed to one 
supervisor for every approximately six employees.
    Now, what the actual catalyst was to changing that dynamic, 
I do not really know.
    Chairman Johnson. Would one of the solutions simply be to 
go back to the 12:1 ratio and have managers get back into the 
operating position? Is that even possible? Have they lost their 
skills? Are they too old? Is that a possibility?
    Mr. Judd. To speak to that--the catalyst was what we call 
``kingdom building.'' If you look at it----
    Chairman Johnson. Government bureaucracy.
    Mr. Judd. It is. It is absolutely government bureaucracy--
but the only way a manager can increase their GS level from, 
say, a GS-14 to a GS-15 is if their operations become more 
expansive. And so, in order to make your operations more 
expansive, you add additional people to your ``team.''
    Chairman Johnson. So, the pay structure within the 
government certainly drives that ``kingdom building.''
    Mr. Judd. It is--and that is absolutely what drives it. If 
you look at my current sector, the Havre, Montana sector, we 
have a Chief Patrol Agent (CPA) who is a GS-15. He only 
oversees 137 agents. That is it. Why we have to have a GS-15 as 
a Chief Patrol Agent in the Havre sector--so what he did was, 
he expanded upon his ``kingdom,'' and he put intel agents in 
cities, like Billings, Montana, that are 4 hours away from the 
border. Those agents actually operate like FBI agents. They 
give us nothing, as far as the Border Patrol goes, but that is 
how he was able to get his GS-15.
    Chairman Johnson. So, we really do need a top-to-bottom 
staffing review of every last one of these Agencies, providing 
a recommendation to the Secretary.
    Mr. Judd. We have to.
    Chairman Johnson. Maybe we should do that through an 
outside Agency. There are plenty of human resources (HR) 
companies that could provide that type of a look, and we could 
take a look at that pretty quickly and get numbers on it. I 
mean, if you can take from your management rank and put that 
into boots on the ground rank, that will certainly help a 
little bit of the personnel shortage.
    Mr. Judd. Well, Senator--and I do not want to take up too 
much time--but, due to days off, we--again, the United States 
Border Patrol has about 19,700 agents right now. Every day, 
about 60 percent of those 19,700 are on duty. We operate 7 days 
a week. And, we operate three shifts. So, 60 percent are on 
duty. Of that 60 percent, it is estimated that only 25 percent 
are actually deployed to the field in an enforcement capacity. 
The other 35 percent are doing administrative jobs. That is 
ridiculous. That has to change.
    Chairman Johnson. We will lay this all out. Again, I am an 
accountant. We are going to lay this out, so it is very 
apparent, in terms of what needs to happen. Senator McCaskill.
    Senator McCaskill. I could not agree more, but, I will tell 
you, Mr. Crane, Mr. Judd, and Mr. Reardon, I am not probably as 
excited about hiring a contractor to figure this out. You guys 
know how to do it. You all should present plans to us on how to 
rework the management structure, so that we get people to the 
front line. It is not going to do us any good to hire 5,000 or 
10,000 more if 50 percent of them are going to be doing 
administrative work and figuring out to get a higher GS ranking 
for pay. That makes no sense, whatsoever. And, the fact that we 
are not doing that first--I mean, think of the efficiencies we 
could get out of your Agencies if we listened to the frontline 
workers, through your representation. That is what I think is 
really an important takeaway from this hearing--that unions 
matter. And, what you guys represent, in terms of people on the 
ground, matters.
    So, I would just tell you, I welcome your analysis on how 
we could rework management and how we could bring down the 
number of people doing administrative--versus the number of 
people that are on the front lines.
    And, also, Mr. Crane, I want you to know our whistleblower 
protection is, I hope, well known in the Federal Government. I 
hope you will encourage your members to let us know when there 
is improper behavior by managers against your frontline 
officers that are out there doing the hard work every day. When 
you see waste and abuse, I hope you call us, so we can follow 
up. And, we are very protective of whistleblowers. Nobody needs 
to worry that we are going to throw them under the bus. We will 
not. So, please, let everyone know that we want to be helpful.
    Mr. Crane, let me ask you about another part of the 
magnet--and this has been something I have been banging on 
since I got here. We know that there are employers in this 
country that are knowingly hiring illegal immigrants. We know--
in fact, I bet if I got a bunch of ICE agents in a room, in any 
given State, they even know who they are.
    Mr. Crane. Yes, ma'am.
    Senator McCaskill. You guys know who they are.
    Mr. Crane. We know who a lot of them are.
    Senator McCaskill. Why are we not prosecuting them? Why are 
we not going after the employers who are knowingly cheating? 
They are creating an unfair competitive advantage. They are, in 
fact, a magnet that is, in fact, helping draw people over the 
border. I mean, most of these people are not coming for a 
vacation. They are coming to try to find work. And, the issue 
is, if we never go after the employers--have you all, in terms 
of your union, ever presented a plan to management about how we 
could effectively enforce all of our laws--not just for those 
people who have entered this country illegally, but for the 
people who are hiring them illegally?
    Mr. Crane. Ma'am, I could not agree with you more strongly, 
I believe. But, I would want to be clear that, I think that, 
maybe, in the previous Administration, obviously, there was 
nothing really done on worksite enforcement.
    Senator McCaskill. Or the previous. When I got here, 
Secretary Michael Chertoff sat in your chair and said, ``I have 
no idea how many employers.'' They could not even give me the 
numbers of employers--they had lots of photo opportunities of 
rounding up illegal immigrants in the workplace--but not one 
citation. And, somebody that ran ICE, at that point, actually 
had the nerve to tell me, ``Well, these would be hard cases to 
make.'' I said, ``No, they are not. If we have 10 workers 
working on the same Social Security number, give it to a jury 
and I will get a conviction in 10 minutes.'' People hate that 
people cheat on this.
    Mr. Crane. Well, but we cannot separate the two. I mean, if 
we are going to do worksite enforcement, then we have to do it 
with those people working there illegally. They have to be held 
accountable for what they have done.
    Senator McCaskill. Of course.
    Mr. Crane. We absolutely need to very aggressively go after 
these businesses and their owners. I could not agree with you 
more. Worksite enforcement--even though ERO participates in 
it--it is actually the mission of Homeland Security 
Investigations (HSI) to prosecute it. But, my understanding of 
some of the problem, on the prosecution side, is the wiggle 
room within the law, in terms of prosecuting the employers.
    Senator McCaskill. I do not think so. It is knowingly. All 
you have to prove is they knew it. And, I mean, if we can make 
circumstantial arson cases in this country and we can make the 
kind of cases we make on a routine basis in criminal courts 
across this country--and I know we have several prosecutors on 
the panel here. I was in that courtroom for years and years. 
Believe me, this is not a hard case to prove--that somebody 
knowingly hired illegal immigrants. You guys know who they are. 
It is common sense, and you can get the evidence. All you have 
to do is subpoena their work records and figure out pretty 
quickly that they are--just find that they have no payroll 
records and they are paying everybody under the table. There 
are apartment buildings in St. Louis, Missouri that are full of 
illegal immigrants, stacked to the gills, where people are 
getting paid by cash every 2 weeks, absolutely--talking about 
taking American jobs away.
    Mr. Crane. Absolutely, ma'am. But, also, in some of those 
areas, we are prohibited from going in there. We have----
    Senator McCaskill. Well, I need to know who is prohibiting 
you from going in there. And, we need to get to the bottom of 
that.
    Mr. Crane. OK.
    Senator McCaskill. Because, I think, this is a place where, 
maybe, we can get some bipartisan agreement.
    Mr. Crane. Absolutely. Ma'am, I am telling you, you are so 
right on this. And, if we are able to do this worksite thing--
and we actually do it, we are going to shut down so much of 
this illegal immigration and everything that goes with it.
    Senator McCaskill. Absolutely. Talk about a deterrent.
    Mr. Crane. Yes.
    Senator McCaskill. It is very hard to deter a woman and her 
children who think the only way they are going to live is to 
get to the United States of America. On the other hand, if you 
start taking businesses to court and actually punishing them 
for doing this, it is going to clean this up faster than all of 
the border agents in the world.
    Mr. Crane. Yes, ma'am.
    Senator McCaskill. You covered the management questions, 
Mr. Judd. Let me circle back to the wall, just briefly. I am 
going to read a quote that I have of yours.
    Mr. Judd. OK.
    Senator McCaskill. This caught my eye, because I agree with 
you, and I want to emphasize it. This was from November 17th on 
National Public Radio (NPR). ``In fact, I was in discussion 
with the transition team yesterday. If you were to ask me, I 
would say that, right now, again, we have about 10 to 15 
percent of our border has fencing or a wall. If I were to 
quantify an actual number, I would say that we need about 30 
percent.''
    Do you still stand by that statement?
    Mr. Judd. I do. And, that is actually one thing that I 
appreciate about the Trump administration. They did, in fact, 
bring the boots on the ground in, to talk about and discuss 
this. He took it from a business point of view, understanding 
that he had an idea, but understanding that he did not know 
everything.
    Senator McCaskill. So, do you believe they are only going 
to want to build 30 percent?
    Mr. Judd. I do not know. I do not know what the 
Administration----
    Senator McCaskill. Because, we have not gotten that signal 
at all. The signal we have gotten is, this is going to be 
billions of dollars and they are going to----
    Mr. Judd. What I have gotten is that they are willing to 
take the expertise of those that know best. In fact, the Chief 
Patrol Agent that the Trump administration just installed, 
Chief Ronald Vitiello, just said that we do not need a wall 
across the entire United States. We need walls in strategic 
locations. All he did was parrot exactly what I have been 
saying for about a year.
    Senator McCaskill. Perfect. Well, let us hope that you all 
will dictate that policy and that we can do something that 
makes sense, in terms of the wall, where we need it. I would 
point out that one 54-mile section of fencing in South Texas 
required 400 land acquisitions--and 330 of those were 
condemnation by eminent domain--a lot of which is still 
litigating, because, as you know, your agents are sitting in 
pickup trucks by those open gates, because they are still in 
court after years and years and years. And, none of those costs 
have been figured in. All they have figured in on these costs 
is just the actual building. They have not figured in--one 
piece of land was initially offered at $114,000 for 8 acres. In 
August 2012, it was settled for $1 million. So, that is just 
one case, on one parcel of land. So, we are talking about 
hundreds of millions of dollars in land acquisition that is not 
even--and maybe even billions--that is not even being figured 
into this, when you count the litigation that is involved.
    Thank you, Mr. Chairman.
    Chairman Johnson. So, the good news is, we can influence 
these policies. That is the whole purpose of this hearing. So, 
we are getting a lot of good information.
    Before I turn it over to Senator Lankford, I do want to 
follow up really quickly on the threat. And, maybe, you do not 
want to answer this--and I will agree with Senator McCaskill. 
We have a very good process of whistleblower protection here, 
in this Committee. But, who is prohibiting you from enforcing 
the law with employers?
    Mr. Crane. It is really kind of--it is a complicated kind 
of story, but, very quickly--under DHS, they combined Customs 
and Immigration to make ICE. There was kind of a turf war that 
took place after that. And, the bottom line is that the Customs 
folks kind of won. Their management won. And, they really, for 
the most part, do not want to do immigration work. That is part 
of the problem.
    The other part of the problem, actually--when I was talking 
to Senator McCaskill about being prohibited to do things--for 
example, in my area, in Park City, Utah, we would be prohibited 
from going into certain--we get complaints from citizens--
residents--about these giant apartment complexes full of all of 
these people and stacked with all of these people in these 
apartment buildings. And, the Park City Mayor basically said, 
``I do not want you guys up here in Park City enforcing the 
law.'' And then, that would come down, kind of politically, 
through the channels. And then, the Field Office Director would 
tell us, ``Stay out of Park City.'' And, the Police Chief up 
there would be singing the same tune. The cops on the ground 
are not saying it. They would be begging for us to be up there. 
But, that is kind of how the politics play out.
    And, I want to tell you right now, we have, in the past, 
had individuals in custody and had--at least what we were told 
was, ``Senator such-and-such called or Representative so-and-so 
called, and you guys got to cut this guy today.''
    Chairman Johnson. So, it is kind of----
    Senator McCaskill. We need to know about that.
    Chairman Johnson [continuing]. Like an under-the-table 
sanctuary city.
    Senator McCaskill. That is a felony. And, if that is going 
on, we need to know about it. I mean, when you all hear that in 
the field, you have to call us, because that is--and, follow 
those people to work and arrest the guy who is hiring them. 
Follow them to work. I mean, I just think that is unbelievable.
    Mr. Crane. Well, I do want to say, on the tail end of both 
of those comments, that Enforcement and Removal Operations--
that is who I work for--we are all about doing this immigration 
mission. And, anything that you can do to bring those--because 
we have half of the missions, basically. HSI has some of them. 
HSI does not want to do them, and they continually keep kind of 
moving them over to us. Somebody needs to look at, one, I 
think, making them do their immigration missions, but, long 
term, we need to look at bringing more of those immigration 
missions over to ERO--the folks that will actually do them--and 
expand our duties to where they actually include worksite 
enforcement and things like that--because we will get it done 
for you. We will get it done for the country. I am telling you. 
ERO--we do more with less than anybody, I think, in the Federal 
Government. Give us those immigration missions. Give us the 
people to do it, expand our duties, and we will make it happen 
for you.
    Chairman Johnson. You will all be supplied our websites for 
whistleblower protection, so you can contact our Committee.
    Mr. Crane. Sir, if I could just say on that really quickly, 
the whistleblower part of it, though, is just a small piece of 
it. It is really kind of out in the field. It is anytime an 
officer or an employee says, ``Hey, boss, I do not think this 
is safe. I do not think this is legal. I do not think this is 
right.'' And, it does not always fit into that--in fact, it 
seldom does fit into that whistleblower thing. And, we have an 
Office of Special Counsel (OSC) case right now, where, it is 
our understanding, the Office of Special Counsel has found 
that, ``Hey, this is one of the clearest whistleblower cases 
that we have seen,'' and absolutely nothing is being done. That 
manager is still out there managing, if you will, harassing 
every single day these employees--and nothing happens with it. 
So, our folks--and I think all Federal employees--have 
completely given up on this whistleblower protection thing.
    Chairman Johnson. Well, well beyond this hearing, we will 
work very closely with you and our staffs----
    Senator McCaskill. We should do a whole----
    Chairman Johnson. Bipartisan. We have held whistleblower--
we will do more. But, we will work very closely with our staffs 
and with your Agencies. And, we are going to get to the bottom 
of this.
    Mr. Crane. Thank you, sir.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Gentleman, thank you for being here. 
Thank you for the work on this. This is something Senator 
Heitkamp and I are working on as well, dealing with the Federal 
workforce and the gaps that are in there, as well as Inspector 
General (IG) reports and where Inspector Generals are doing the 
task and where they are not doing the task--and then, also the 
whistleblower comments, and trying to get information back up. 
So, I appreciate what you are doing. We will continue to be 
able to stay on that task as well--as well as the Chairman and 
the Ranking Member here.
    I need to ask a couple of questions here, just related to 
some of the testimony. There has been a lot of conversation 
about needing additional staff. Can you help me understand the 
places--as you look at it, obviously, you are not assigning 
each place. I am not talking about 12 here and 13 there. But, 
if you look at the key areas where additional staff are 
needed--I am guessing it is not in management. But, as you are 
dealing with locations and places--is it in the agriculture 
enforcement area? Is it, specifically, on fielding the border? 
Is it the ports? Where would you identify the key places that 
need additional staffing?
    Mr. Reardon. Thank you for that question, Senator. I 
represent 25,000 employees in the ports of entry, and, right 
now, we are short 3,500 CBP officers around the entire country. 
I am not sure if you saw the photograph of San Ysidro.
    Senator Lankford. I can see it.
    Mr. Reardon. They are short 350 officers in San Ysidro. I 
would say that same kind of situation--though not at the same 
level--not the same numbers--is replicated really across a lot 
of the Southwest border--and, actually, we have the problem in 
other ports of entry as well. And, the problem that I really 
want to point out is that, when I travel around the country and 
talk to our people--and I do quite a bit--the number one thing 
that gets brought to my attention every single time is staffing 
and the impact that the lack of staffing has on those 
individuals--and more so even on their families. I mean, we are 
talking about people--I mean, I have heard stories about people 
falling asleep on their drive home, because they have worked 
days on end--16-hour days. That is just wrong----
    Senator Lankford. It is.
    Mr. Reardon [continuing]. To do to human beings.
    Senator Lankford. Is this, specifically, ports of entry? 
Clearly, that is an area. Where are the other areas that we 
would look at and identify?
    Mr. Reardon. I will let these gentlemen respond to that, 
because I represent the folks at the ports of entry.
    Senator Lankford. Thank you.
    Mr. Judd. The Border Patrol is very fluid. We do not 
dictate where illegal immigration takes place--unlike the ports 
of entry. The ports of entry know how many airplanes are going 
to land at an airport. They have a good idea of how many 
vehicles are going to come. In Sweet Grass, Montana, they have 
a very good idea how many vehicles are going to come across 
that port. So, you can basically staff based upon history 
there.
    With the Border Patrol, we have to constantly be fluid--and 
we have to address the problem where the problem lies. For 
instance, in the 2000s, it was all Tucson, Arizona. Now it is 
RGV, Texas. Next year, it could be Havre, Montana, simply 
because of the loose visa regulations in Canada now. So, we 
have to be fluid in addressing the problem as the problem 
arises.
    Senator Lankford. OK. Do you have a comment, Mr. Crane?
    Mr. Crane. Sir, we need people everywhere. We have 5,000 
people in 50 States, Guam, Puerto Rico, Saipan, and the U.S. 
Virgin Islands. And, basically, all of our folks should be 
doing the same mission everywhere that they are at. And, just 
to give you kind of an example of what has been happening on 
the interior enforcement side--the attacks on September 11, 
2001 (9/11) happened why? Because people came here on visas--
they entered the country legally--they never would have been 
prevented from being here by the U.S. Border Patrol. But, the 
response from Congress was to triple the Border Patrol and make 
us smaller. And so, we are way overdue for some staffing 
adjustments. And, I promise you that, if we had 10,000 more 
officers tomorrow, we need them all. But, I think, with kind of 
what Senator McCaskill said, I think we need to take a look 
at--we have too many people--too many officers with guns, 
badges, and immigration arrest authority sitting in offices 
doing data entry all day long. And, they need to be out on the 
street.
    Senator Lankford. So, that is an area we are hearing loud 
and clear. And, that is an area that we will work with 
Secretary Kelly on, to be able to try to determine what is 
happening and try to be able to push people out of the office--
what is slowing down and what is requiring all of the data 
entry and the reporting--not allowing people to actually get 
into the field. I think that is extremely helpful. The E-Verify 
system and the enforcement structures--all of those things are 
in an ongoing conversation here. How do we actually strengthen 
that and be able to bring encouragement to it? All of these 
hiring issues, though, and the push to surge the hiring, I look 
at--and Senator Heitkamp and I have dealt a lot with the hiring 
measures. As many of you may know, Federal Government-wide, on 
average, in 2015, it took 90 days to hire a Federal employee. 
In 2016, it took 100 days to hire a Federal employee--except 
for you guys, where it takes 460 days to hire one employee--460 
days. And, there is a 65-percent failure rate on the polygraph 
in the middle of that. So, I need help on both of those. Why 
does it take 460 days? Can some of those processes not be 
combined, so they are simultaneous, rather than linear, in 
order? And, why do we have a failure rate of 65 percent?
    Mr. Judd. ICE does not have a pre-employment polygraph. The 
Border Patrol does.
    Senator Lankford. Right.
    Mr. Judd. I will tell you, right now, we are not 
administering the polygraph correctly. Period. We have police 
officers that have passed the polygraph for their Agencies that 
fail our polygraph. That means it is--one of two things happen. 
That police officer, upon entering in as a police officer, 
became corrupt, or we are not administering the polygraph 
correctly.
    Senator Lankford. No one else is even close.
    Mr. Judd. Nobody comes close to having the three times--
Senator Lankford, I will tell you--Senator McCaskill said to 
draw up a plan. I will tell you, we have drawn up plan after 
plan after plan for the Agency. And, the funny thing is, there 
is nothing in it for me. I cannot ``kingdom build.'' I cannot 
promote myself. So, when we draw up a plan, this plan is 
altruistic. Whereas, the 
Agency--when the Agency draws up a plan, it is based upon 
themselves. It is based upon, ``How can I further my career 
based upon this plan?''
    I will tell you right now, I have spoken with Commissioner 
Gil Kerlikowske and with Deputy Commissioner Kevin McAleenan 
until I was blue in the face about this polygraph issue. And, 
they just refuse--if they change it, they have to admit that 
they were wrong. And, they refuse to admit that they were 
wrong. We are not administering the polygraph correctly. If we 
do that, we will not have the kinds of problems that we 
currently face. And, Senator Flake is introducing legislation. 
Why does it take legislation to fix a problem that is this 
simple?
    Senator Lankford. Pretty obvious.
    Mr. Judd. It is.
    Senator Lankford. It should be obvious, and this is 
something that we will continue to be able to press on, in the 
days ahead, because this--I would hope any new Administration 
would step in, take a look at all of the previous things from 
decades back, and try to evaluate. DHS, obviously, is a merger 
of multiple Agencies to be able to come together--and there are 
still HR issues. There are still documents that are missing. 
There are still process issues that are missing. And, we will 
try to continue to be able to press on this, to be able to make 
sure it gets there.
    I would say to you that, anything you can resubmit needs to 
be resubmitted, so it can get into a process, right now, in the 
conversation with a new Administration.
    Mr. Chairman, thank you.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Thank you, Mr. Chairman. And, to 
our Ranking Member and to all of our witnesses, thank you for 
the work you do and for your leadership.
    I am reminded that Senator Heitkamp was nice enough, a 
couple of years ago, to take me up along the border with 
Canada. And, Senator Levin did a similar thing, along the 
border with Canada over in Michigan. I learned a lot from both 
of those trips. And, I have been on the border with Mexico, 
from San Diego to Brownsville, Texas--and a lot of places in 
between. There are plenty more places I did not see. But, among 
the lessons that I learned is that what may work on our border 
with--first of all, I think everybody on this panel--I think 
everybody in the Senate agrees we need to have secure borders. 
I think most Americans agree we need secure borders. The big 
question is: How do we get them? And, what may work well on our 
Northern border with Canada may not be appropriate in Mexico. 
What may work in parts of Texas may not work in parts of 
California, along the Mexican border. What may work in one part 
of Texas may not work in another part of Texas.
    The times that I have been on the border to talk with a 
bunch of the folks--your colleagues and compatriots, Mr. Judd--
I do not remember many of them ever saying that we needed a 
wall. I just do not remember that. I remember them saying, ``We 
need a fence. That might make some sense.'' In some places, it 
does. In some places, it does not. But, what I have come back 
with is a focus on force multipliers--and force multipliers--I 
think of force multipliers--how do we make the men and women, 
who are doing the work on the ground, every day, on our border, 
for example, with Mexico--how do we make them more effective? 
And, you ask them questions. And, they will give you ideas, as 
you know. In some cases, one of the things they said is, 
``Actually, we--need helicopters that are reliable.'' And, 
maybe, it makes sense--instead of having a variety of different 
kinds of helicopters that would require different maintenance, 
different maintenance crews, different technologies, different 
maintainers, and different supply chains--maybe, we should have 
similar helicopters. Maybe, in some places, we need boats. In 
other cases, we need boat ramps. And, in some places, where the 
grass is really high along the border, horses actually work. In 
some places, we need stationary observation towers. In other 
places, we need mobile observation towers. In some places, we 
need an aerostat that goes up thousands of feet up in the air, 
with cameras, that will enable us to look deep into Mexico.
    Almost everybody said that we need good intelligence--
better intelligence. And, some people said that we need drones. 
Some said that we need fixed-wing aircraft. We need all the 
above. We need all of the above, and we need to figure out 
which works best. And, I always like to say, ``Ask your 
customer.'' In this case, the customers are the folks that are 
working on the border. And, they have given us some pretty good 
advice.
    I would just say, Mr. Judd, if I could, do you believe that 
some of the alternatives that I have mentioned--the force 
multipliers that I have mentioned--make sense? Are there some 
that make more sense than others? Are there some that I have 
not mentioned--and there probably are--that you would like to 
bring to our attention?
    Mr. Judd. Force multipliers are extremely important. But, 
what I will tell you is that we do have an awful lot of 
technology that we are just flat out not utilizing. For 
instance, early in my career, helicopters flew at night. We had 
no problem getting night coverage. And, what is interesting is, 
the vast majority of the arrests that take place on the border 
happen at night. Right now, the Office of Air and Marine 
Operations (AMO) fly very little at night. In fact, in RGV, we 
had to use the Coast Guard to fly sorties in certain areas. 
And, when their apprehensions became so great, it is my 
understanding that AMO asked them not to fly anymore at night, 
in RGV, because it was making them look bad.
    So, what we have to do is, we have to take the technology 
and the resources that we do have, and we have to utilize that 
technology and the resources correctly. But, the problem is, 
when we see AMO not utilizing the technology correctly--or the 
way that we have utilized it before--and yet, this individual, 
who was the head of AMO, is now the Acting Deputy Commissioner, 
we are rewarding ineptness that has happened under his watch.
    Now, I do not know this individual, personally. But, I can 
tell you that, because we are a separate Agency--which never 
should have happened in the first place--in the past, the 
Border Patrol had their own air unit, and we got to dictate 
when the flight hours were--when the flight time was. But, 
because we created this huge bureaucracy--this ``kingdom 
building'' that I mentioned before--because we did that, we 
separated it out. And now, AMO has complete and total control. 
And, we have lost a lot of the flight time and flight hours.
    So, we have to utilize the technologies that we currently 
have better. And, we are just not doing that.
    Senator Carper. All right. Thank you. Our Chairman, along 
with Senator Heitkamp and I, has traveled to parts of the 
``Iron Triangle''--Honduras, Guatemala, and El Salvador--and I 
am going to meet later today with the President of Honduras, 
President Juan Orlando Hernandez, to talk about some of these 
issues that we are talking about.
    One of the things I have heard our Chairman say many times 
is, we need to focus on the root causes of illegal immigration. 
And, it goes back to our addiction, in this country, to illegal 
narcotics, which are trafficked through these countries--
through Honduras, Guatemala, and El Salvador, as you know. And, 
if we do not focus on trying to make those places more 
habitable--to places where there is more hope and rule of law--
then we can deploy all kinds of assets--human assets and other 
technology assets--along the border, and we will not really 
make the kind of progress we otherwise could make. When General 
John Kelly was before us a month or two ago, for his 
confirmation, he pretty much said the same thing.
    Let me just ask for the three of you just to react briefly 
to what I have just said and what General Kelly said. Just very 
briefly.
    Mr. Judd. We have to be proactive. We cannot be reactive. 
Our intel is reactive, instead of being proactive. If we take a 
proactive approach, we will be much more successful.
    Senator Carper. All right. Thank you.
    Mr. Reardon, any comments?
    Mr. Reardon. Yes, I would agree with that--that we need to 
be proactive.
    Senator Carper. All right.
    Mr. Reardon. Absolutely.
    Senator Carper. Mr. Crane.
    Mr. Crane. We definitely do need to be proactive on the 
intel side. We have been telling ERO for a long time that we 
need to do more intel gathering. We are encountering these 
people. We are interviewing them, and we are not really 
gathering intelligence on them. We are not asking, ``Hey, where 
are these fraud document houses at?'' or ``What kind of drug 
trafficking information could you have for us--things that we 
could pass up the pipeline?'' We are just not doing it.
    And so, there are a lot of simple answers out there that, 
really quickly--to where we could be more proactive and more 
aggressive in our law enforcement.
    Senator Carper. All right. Thank you all.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. And, I want to 
thank all of the representatives for being here, today. It is 
good to see some union boys at the table.
    I sent a letter off yesterday to Acting Commissioner Kevin 
McAleenan--you said it better than I did, Brandon--and they 
plan to hire 5,000 folks for the Southern border. The Northern 
border is kind of important to me, and I am sure it is 
important to all of you guys, too. So, just to get a baseline, 
we were talking about, on the Northern border--Brandon, I know 
you talked about how your guys and gals have to be fluid. But, 
just overall, do you guys have any numbers on what you might be 
short on for the Northern border?
    Mr. Judd. Absolutely. In fact, this is talking about being 
proactive, instead of reactive. What I am scared of is that we 
are going to throw all of our resources down on the Southwest 
border and we are going to leave our Northern border wide open.
    Senator Tester. Yes.
    Mr. Judd. If you look at the cost that a smuggler charges 
to bring somebody up through Mexico now, it is actually more 
cost-effective to fly them into Canada. And so, we are creating 
a situation where we are not going to have enough agents up on 
the Canadian border. If we hire 5,000 new agents, we must at 
least put 1,500 of those agents on the Northern border--not all 
down on the Southwest border.
    Senator Tester. OK. Thank you for that. I will get to the 
ports in a second, with you, Mr. Reardon. But, we talked about 
hiring and the polygraph issue. This is not the first time I 
have heard about it either. And, I do not know about you guys, 
but I have made plenty of mistakes, and you need to admit them 
and move on, or you never get it fixed. And, I would expect the 
leadership within the Agency would do that, to do the right 
thing here.
    But, the question becomes--and you brought it up a little 
earlier, Brandon--that there is new immigration--I guess that 
is the word you would use--policy up in Canada. I mean, I think 
the statistics show that there have been a lot more detentions 
happening over the last 6 months, since this policy went into 
effect. Does this shift your priorities or not? And, if you 
know this--because I think you do--do the folks above you know 
this? Because, I think, truthfully, everybody focuses on that 
Southern border. You just pointed it out--when, in fact, they 
will go to the weakest link. And, if the Northern border is the 
weakest link, that is where it will happen. Could you comment 
on that?
    Mr. Judd. Well, yes, just really quickly, in the mid-1990s, 
the problem area for illegal immigration was San Diego and El 
Paso, Texas.
    Senator Tester. Yes.
    Mr. Judd. And so, what the Border Patrol did was, they 
threw all of their resources there, thinking that they were not 
going to create this funnel through Tucson, Arizona. But, in 
fact, they did create that funnel. And, they are doing the 
exact same thing, right now. They are creating this vacuum 
where they are going to force illegal immigration to start 
coming through Canada, because it is too cost-prohibitive to 
come up across the Southwest border.
    The leaders do know that. But, again, our leadership is 
always reactive. They are very rarely proactive.
    Senator Tester. OK. Let us talk about the ports just for a 
second. And, I will start with Mr. Reardon. You talked about 
being short about 3,500 folks. And, you seemed to indicate that 
was on the Southern border, alone. And, correct me if I am 
wrong. Go ahead.
    Mr. Reardon. That was actually just in San Ysidro, the 
350--3,500 is nationwide.
    Senator Tester. OK. So, how many of those folks are needed 
on the Northern ports?
    Mr. Reardon. Well, I can give you, certainly, an example. 
We are short nearly 100 people in Boston, in Buffalo, and in 
the Seattle Field Office.
    Senator Tester. And, those are each 100 in each one?
    Mr. Reardon. Yes, 100 each.
    Senator Tester. OK. And, this applies to any one of you. I 
mean, right now, I believe CBP needs about 1,700 just to get up 
to the levels we are at now. Now we are talking about another 
5,000 above that. You talked about the polygraph. I am asking 
this question, honestly. Why are we not getting even up to 
staffing? Is it just the polygraph? Is it pay? Is it working 
conditions? What is it? Why are people not wanting to go to 
work there?
    Mr. Judd. It is all of the above. Senator McCaskill, I want 
to tell you right now, I pray that you do not stop Border 
Patrol agents from going to ICE. That will kill morale, 
exponentially.
    Senator, the problem is, agents do not want to work for the 
Border Patrol, because we have this issue--if you look at the 
Federal Employee Viewpoint Survey (FEWS), we are at the 
bottom--and we have always been at the bottom. If we are not 
dead last, we are always somewhere right at the bottom.
    Senator Tester. But, why are you dead last?
    Mr. Judd. Because we have this management structure that is 
so over-heavy and that is so overbearing that agents just do 
not like it. When I came into the Border Patrol, I had to show 
up for work an hour before work. And, as a trainee, I spent 
that hour just getting yelled at. That is all I did. I just got 
yelled at.
    And so, when you have that culture--we brought in--
Commissioner Kerlikowske brought in Chief Mark Morgan to fix 
the culture of the Border Patrol. And, all he did when he came 
in was surround himself with the exact same people that were 
the problem in the first place. And so, we have to fix that.
    Senator Tester. OK. Do you have an estimate of how many 
people on the Northern or the Southern border are nearing 
retirement?
    Mr. Judd. Yes. And, that is another problem that we are 
going to face. We already have this high attrition rate. And, 
on top of that, in a couple of years from now, we are going to 
start seeing the people that we hired in the mid-1990s--we are 
going to start seeing them start to retire. I am going to be 
eligible for retirement in just a couple of years--and I am 
young. And so, we have a lot of individuals that are coming up 
that are going to be retirement eligible. And so, that is going 
to add to the attrition as well.
    Senator Tester. OK.
    Mr. Judd. We have problems.
    Senator Tester. I came in right as Senator McCaskill was 
asking her questions on the wall, so I did not hear it all. 
But, I will just tell the Committee this: You are right, we do 
need to massage this stuff. But, right now, the Administration 
is asking for a reprogramming of $20 million--not to look at 
technology, not to look at drones, and not to look at anything 
other than a concrete wall. And, if we allow this to happen 
without getting input from the folks that are sitting at that 
table, we are not doing the American taxpayer justice--and we 
are not doing justice to the folks who want to see this country 
secure, which is all of us. So, thank you very much.
    Mr. Judd. Senator, may I address that?
    Senator Tester. Yes.
    Mr. Judd. I was just told a couple of days ago by a very 
high leader that union bosses should not be involved in certain 
processes. Now, I was very offended, because I am not a union 
boss. I am a Border Patrol agent. Period. I am a Border Patrol 
agent that was elected to represent Border Patrol agents. And, 
to have somebody tell me that I should not be involved in 
certain processes, especially when I am a Border Patrol agent 
and when I am in every single area speaking with agents almost 
on a daily basis--and to be told that I should not be involved 
in that process--that is a problem.
    Senator Tester. We are missing out on information that we 
need to have to make good decisions. If you do not have good 
information, you do not make good decisions. You all delivered 
good information. Thank you, guys, for being here.
    Chairman Johnson. Again, there is a reason you are involved 
in this process here, today. So, we appreciate your 
testimonies.
    I will also say that, in terms of walls and fences, one of 
the reasons I went to Israel, right before Christmas, was to 
inspect their fence. Very effective--$2.9 million per mile--it 
works. It cut their illegal immigration rate from, I think, 
16,000 to 18--one, eight. So, fencing does work in the right 
spots--and that is why we are looking at this, so we can 
provide better guidance for better policy. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you so much, and thank you for 
everything that you do every day. I have spent a lot of time on 
both borders. And so, I want to kind of get right to it.
    Number one, I have to stick up for my friends at AMO. They 
are short on pilots, they are short-staffed, and they have the 
same--I think the pilots would give you the same argument that 
you are giving us, about how people up here do not understand. 
And, they want to be in the mission. It is clear to me they 
want to be in the mission. And, the guys who are flying are 
trying to assert the kind of inputs that they think they need. 
So, I just have to kind of stick up a little bit for the AMO 
guys.
    The Northern border--last Congress we passed a Northern 
border bill that says that you have to tell us the threat and 
you have to tell us what we are going to do about it. I want 
you guys to inject yourself into that process. I want to see 
that threat assessment and that plan reflect the ideas that you 
have. We have huge staffing problems on the Northern border.
    Let me tell you a couple of stories. We have a Border 
Patrol agent who lives 50 miles from Portal, North Dakota. They 
make him drive his private car 50 miles to Portal, to pick up 
his Border Patrol car to patrol the border, and go 100 miles, 
so he can drive back to Portal to pick up his personal car, 
because they changed the policy on whether you could take the 
car home. Now, that is something that is ridiculous, but it 
affects morale.
    And, let me tell you about Customs and Border Protection. I 
have done a lot of discussing and talking, especially on the 
Northern border. We have a gentleman up there in Portal, who 
has worked for Customs and Border Protection for 30 years. He 
has a family in Kentucky or Tennessee--one of those States. He 
wants to go home. He wants to do just a quick transfer and go 
home. They will not let him go home, and they work him 16 hours 
a day. And, he is in the mission and he is not giving up, and 
he is kind of a grandfather to a lot of the new guys coming on. 
And, I think that is one of the reasons why they will not let 
him go, because he is a mentor to the new agents and keeps 
morale up. But, why would we abuse this person, who has given 
so much to our country and so much to border protection?
    Those stories need to be told, and they need to be told 
clearly. We have a bill called the Flexible Hiring and 
Improving Recruitment, Retention, and Education Act of 2016 
(Flexible HIRE Act), which would get beyond the Office of 
Personnel Management (OPM) kind of nonsense, and that goes 
there and says that, if you have a need, we have to give the 
ability to hire directly to the Agencies--and we have to speed 
up this process. I hope you guys will take a look at that. I 
hope your unions will take a look at that and weigh in.
    Senator Lankford is absolutely correct. We are on this. We 
are concerned that you have somebody that came out of the 
military--a veteran, who wants to continue serving the country. 
Guess what? We make them retake a polygraph. And, even though 
they have the highest clearance, they do not pass the 
polygraph. That is crazy. It is insane. We have to get beyond 
these problems.
    We also have an opportunity--regardless of what you think 
has happened politically--to hit the reset button--to rethink 
how we are going to do this and what we view to be situational 
awareness in this country on the border. We cannot hit that 
reset button unless we do some of the things that you have 
heard here, which are talking to employers and doing some 
white-collar investigations, which should help quite a bit--
doing something, in terms of verifying citizenship, when people 
are being hired--making that easier. And then, obviously, 
figuring out a plan to deal with the overstaying of visas. I 
think, Mr. Crane, you clearly made that point, in terms of 9/11 
and what we need to do to have interior enforcement.
    But, with all of that said, we need to get politics out of 
border protection. And, we need to start talking about what 
works and what does not work. And, I can tell you, I have spent 
a lot of time on the Southern border. Building a wall--a 
concrete wall--across the Southern border will not enhance 
border security. Will fencing and walls help? My biggest 
concern is what is happening at the ports of entry. When you 
have a line like that, what are you missing? Because, most of 
you guys would say most of the really horrible drugs--whether 
it is fentanyl or whether it is heroin coming across that 
border--are going to come in through the ports of entry.
    I also know that we have a lot of people walking across the 
border and jumping over Normandy fences. That is not 
particularly helpful, either.
    And so, I want you guys to commit to us that you are going 
to once again--and we can help you with this--be involved in 
that reset button, be involved in the Northern border strategy, 
be involved in the Southern border strategy, and think about 
the ports of entry.
    Mr. Reardon, I think you want to comment.
    Mr. Reardon. I do. And, thank you very much, Senator. NTEU 
was very interested in playing a role in that process. I will 
tell you that, number one, I have been very appreciative of 
you, in terms of the pay flexibilities that you have talked 
about. And, I have testified in front of you before about 
things that have gone on in the Bakken region. And, I think we 
need to pay attention to some of the opportunities that we have 
for the utilization of pay flexibilities, right now, to take 
care of some of these situations that we have, where people do 
not want to go to work at San Ysidro. It is very difficult to 
get people to want to go down there and deal with what you see 
every day in that picture. I think, to be able to use 
recruitment awards and those kinds of things are important.
    But, I also think that we need to make sure that we are 
paying attention to the hiring process. I do not remember who, 
but somebody mentioned the length of time that it takes to 
bring somebody on board. The numbers that I have heard--and 
they vary, but I will give you the range that I have heard. At 
CBP, it takes anywhere from 105 applicants to 150 applicants to 
generate a new employee. That, to me, is just incredible. I 
have gotten the stories. I have heard the horror stories, 
candidly, from folks who have taken the polygraph. And, they 
have been sitting in a polygraph for 8 hours, in some cases. 
The fact that 65 percent--and we heard that number earlier--are 
failing, when the expected failure rate is somewhere in the 25 
percent to 30 percent range, is outlandish. So, I think we do 
need to fix that.
    In terms also related to hiring, I have heard horror 
stories where an individual has to go to an interview in one 
location, and then several weeks later or a month later, they 
have to go somewhere else in a different part of the country. 
They have to pay for that. And, that makes it very difficult 
for people. And, they say, ``I do not need this,'' and they go 
work somewhere else--at their local sheriff's office or 
wherever.
    The fact is that it takes, in some cases, 16 months to 18 
months to bring a new hire on board. How many people in this 
country can afford to sit around for 16 months to 18 months 
before they can be brought on board? So, the hiring process has 
to be looked at very carefully as well. So, thank you very 
much.
    Mr. Judd. May I jump in? You touched on something that is 
very interesting. You talked about vehicle assignments and how 
you have to drive so far to get to--this is something that I 
have been pressing the Agency on forever. We could save 
millions of dollars if we would actually use the industry best 
practice, which is to have the agents deployed to the field 
directly from their homes--instead of showing up to a Border 
Patrol station, where we pay millions of dollars--that we 
actually do not use--other than just to show up there. We could 
actually deploy, and it would actually save time. We would get 
more time on task of our agents if they self-deployed straight 
from their home, just like any department of public safety 
(DPS) officer, just like any sheriff's officer, and just like 
any police force.
    Industry best practices have shown--but the Border Patrol 
seems to be behind the curve, because we always say that we 
have never done it that way, so we are just not going to.
    Senator Heitkamp. Well, they may seem like small things, 
but they are huge things to the personnel. And so, stay engaged 
at a very high level, and we will help you do that.
    Mr. Crane. Ma'am, could I comment on this vehicle thing? I 
was--to throw this in there--and it is a whistleblower thing, I 
think. At ICE, we have kind of done the complete opposite 
thing. They have taken our vehicles--Congress gave us money to 
buy undercover vehicles--basically unmarked vehicles--to do our 
law enforcement mission out in the field. Managers have taken 
the majority of those vehicles and their personal take-home 
rides at taxpayer expense. They have no mission-based need to 
take them. They do not respond to things. While our officers 
then do not have enough vehicles out in the field to perform 
the mission, and we literally have people in--do you know how 
big a 13-passenger detention van is?--a great big marked--they 
are out there trying to do undercover work in 13-passenger 
detention vans with ringers on them when they go in reverse, 
right? And so, at 5 o'clock in the morning, when you went too 
far down a one-way and you need to back up, every window is 
opening up, going, ``Hey, there is ICE,'' because our managers 
have taken all of our vehicles. And, it has been reported to 
the Office of Inspector General (OIG) and OSC. And, it has been 
in the media. And, they just continue to do it, because they 
can.
    Chairman Johnson. So, Senator Heitkamp, let me tell you 
what we are going to do here. Again, I got a smile on my face 
when you said ``crazy'' and ``insane.'' It is. I mean, you are 
defining bureaucracy. And so, what we are going to do is, as a 
Committee and as Members, we are going to sit down with folks 
like these three--and more--and we are going to find out the 
crazy and insane things--and rather than have to worry about 
legislation, because, as Mr. Judd said, the Department can do 
these things under their own authority. We will find out what 
they can, but we are going to highlight it, we are going to 
provide the oversight, and we are going to make sure the 
Department actually does these things--get rid of these crazy 
and insane policies that they have enacted that prevent these 
good men from actually fulfilling their missions.
    So, this is not rocket science. This is not hard. And, we 
are just going to get this done, OK? Because, there are a lot 
of areas of agreement here, and I think we can make some 
significant improvements without having to try and pass a law--
because you know how hard that is. But, again, I think we have 
a good Secretary in General Kelly. I think he will work with 
us, and so this is what we will do as a Committee. And, we are 
going to hop on this.
    Senator McCaskill. And, I would assume--Mr. Judd and Mr. 
Crane, I saw you at rallies. I know you were big supporters of 
President Trump. I think you guys have a lot more power than I 
do. Trust me, you guys have a lot more stick with this 
Administration than a whole bunch of us on this Committee. So, 
hopefully, with that, in addition to our work on this 
Committee----
    Chairman Johnson. We will work together.
    Senator McCaskill [continuing]. Maybe we can actually move 
the needle on this management problem. And, I think we are all 
in.
    Chairman Johnson. So, again, I am dead serious about this. 
It should not be this hard, and we are going to make sure it is 
not. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you. I want to thank all of you for 
your candor this morning. You represent the rank-and-file, and 
they deserve to have a voice at the table. So, I appreciate 
that.
    Mr. Crane, starting with you, you have been very candid 
about what is going on with your troops. Tell me, how many 
members do you have?
    Mr. Crane. We represent approximately 5,000 employees.
    Senator Harris. OK. And, it would be to that number that 
the request has been made--that there would be 10,000 added to 
that number, correct?
    Mr. Crane. Yes, ma'am.
    Senator Harris. So, you have described a ``good ol' boy 
network.'' You have described rank-and-file folks tripping over 
managers in the field. You have described the morale issue 
being one of the worst of any Agency. You have described 
something that concerns me greatly--and all of us, which is the 
officer safety issues. Tell me something. How long do you 
believe that it will take to fix the dysfunction in the Agency?
    Mr. Crane. It is going to depend on who we have as a 
leader. If we get a good Director----
    Senator Harris. Let us say we have the best leader 
possible. How long do you think it will take to fix it? 
Because, it sounds like it is pretty systemic.
    Mr. Crane. It is very systemic, but I think that, once you 
come in and you say, ``There is going to be accountability and 
this is how it is''--and when people do not follow that 
direction and we start getting rid of people--then you are 
going to see changes very quickly.
    I watched a hearing that they did with the U.S. Secret 
Service (USSS)--with Chairman Jason Chaffetz on the U.S. House 
Committee on Oversight and Government Reform (OGR), and I think 
they said something to the effect that they had something 
around 13 directors, and out of them, 12 of them were fired. I 
mean, those are the types of actions--I am not saying we need 
to fire all of our managers, but I am saying that you can make 
changes, I think, fairly quickly.
    Senator Harris. OK. Well, based on the number of 5,000 
members--and you also mentioned that ICE has no policies--I 
would suggest that it is going to be, probably, at least a 
couple of years before whatever the leader wants to have happen 
actually hits the ground. So, I am going to ask you--in light 
of that reality, it seems to me that it is not necessarily a 
good idea to bring on 10,000 more members, when those policies 
are not in place. And, I would ask you to tell me your candid 
concerns about doing that, as it relates to ongoing morale 
issues.
    For example, I am going to assume that you have members who 
have come in, as we have heard from Mr. Judd--folks who have 
dedicated their careers to this issue, came in when standards 
were high, when their morale was good, and they have been doing 
a good job and working in earnest on behalf of the people of 
our country. If you start bringing in 10,000 more folks, who 
have not been adequately trained and are coming into an 
institution where there is dysfunction--do you not see 
continuing morale problems for your members?
    Mr. Crane. The morale problem is actually--it is absolutely 
always going to continue--there is no doubt about that--until 
we make a change on that end. But, we have to get some more 
officers out in the field, and I do not believe at all that it 
is going to be anything but positive, in terms of the mission, 
which is always--yes, we are union folks, but we got into this 
because we care about the Agencies and the mission first. And, 
getting some more officers and employees out in the field--that 
is going to help us do our mission. It is incredible what you 
see out in the field. It is like our employees are on 
autopilot. They are almost without leadership.
    Senator Harris. Right, but let us get into that a little 
bit more specifically, please. The chief justice of the 
California Supreme Court put in a request to Secretary Kelly 
that ICE stop deportation agents from making apprehensions at 
State courthouses. Can you tell me--is there a policy, a 
directive, or a training for your members on safe zones and 
where they can and cannot--or may or should not--detain folks? 
And, in particular, let us talk about courthouses. Let us talk 
about schools. Let us talk about places of worship. Is there, 
to your understanding, an understanding among your members 
about what is a safe zone and where they should not go?
    Mr. Crane. So, there are a couple of different policies, 
and there is actually one that deals with--they are called 
``sensitive locations,'' and they would talk about the 
proximity to a school or something like that, where we might--
--
    Senator Harris. OK. What about places of worship?
    Mr. Crane. Yes, that is also on the list of sensitive 
locations.
    Senator Harris. And, what about courthouses?
    Mr. Crane. Well, I want to say to you, on the courthouse 
part, that we recently had, in our area, a situation where--and 
there is a guidance on it, but our officers were forced to try 
to apprehend this person on the street, instead of inside the 
courthouse, with the bailiffs and----
    Senator Harris. Are you and I talking about the domestic 
violence victim that was contacted? Because, that is one I have 
in mind.
    Mr. Crane. No, ma'am. What happened then is that the 
officers got outside and tried to make the arrest. The subject 
then assaulted them. It, from my understanding, came close to 
that individual almost getting one of their guns that could 
have, obviously, been used on them. So, it is a very dangerous 
situation to put our officers in, when it is so much easier for 
them to be able to go into a court and actually make the arrest 
in the court.
    Senator Harris. OK. But, here is the concern I have. In an 
Agency that you have described as being ``highly 
dysfunctional,'' how can I be sure--because I actually am not 
satisfied--that your agents know what to do, in terms of the 
policies that have been enunciated by this Administration? For 
example, there are, from a memo--I think it was February 20th--
seven priorities--when Elaine Duke was here, in her testimony 
to become the Deputy Secretary of Homeland Security, I asked 
her about those seven priority enforcement areas. And, she said 
to me that they are in descending order of priority. Is that 
your understanding--that those seven factors are in descending 
order of priority for enforcement?
    Mr. Crane. I am sorry, ma'am. What list are you looking at?
    Senator Harris. The list that was issued February 20th--the 
memo through DHS.
    Mr. Crane. The Secretary Kelly memo?
    Senator Harris. Yes. Are you familiar with it?
    Mr. Crane. I am.
    Senator Harris. Are you familiar with the seven factors? 
And, are you familiar with the policy of the Department, as it 
relates to the priority of each of those seven factors? And, 
are your members aware of the priority?
    Mr. Crane. Can you tell me what page you are on, so I can 
look at exactly what you are talking about?
    Senator Harris. It is a memo that was issued by the 
Department of Homeland Security. It has been widely published, 
and it was part of the Executive Order, as it relates to new 
policies for DHS. It includes: one, people convicted of a 
criminal offense; two, people charged with a criminal offense; 
three, people that may have committed an act that is 
chargeable, which sounds to me like the standard of there is 
suspicion of committing a crime. You are not familiar with 
this?
    Mr. Crane. Well, I am, ma'am. I have it right here.
    Senator Harris. So, tell me, what is your understanding 
about the instruction your members have received about the 
prioritization of this list?
    Mr. Crane. Well, my understanding of these priorities is 
that they are, of course, priorities, but----
    Senator Harris. Are they each equal in weight?
    Mr. Crane. I would say that they are probably not all equal 
in weight, but----
    Senator Harris. And, what has the training been for your 
members about the prioritization of these seven factors? Elaine 
Duke, like I said, in testifying before this Committee, said 
that they are in descending order. Is that your understanding--
that it is a descending order of priority?
    Mr. Crane. I think the priority would be in that descending 
order, but----
    Senator Harris. Have your members been trained on that?
    Mr. Crane. I am not aware of any specific training on this 
memo, ma'am, no.
    Senator Harris. So, does this speak to, again, the concern 
that you have about dysfunction in the Department? I would 
believe, and it has been my experience in law enforcement, that 
when troops on the ground have not been trained, it leads to 
dysfunction, because there is a lack of consistency, 
accountability, and direction. So, I am concerned about this--
and I would like to know whether you are concerned about it.
    Mr. Crane. Ma'am, we have some great employees--great 
officers----
    Senator Harris. That is not my question.
    Mr. Crane. Well, it is part of the answer.
    Senator Harris. I am not talking about looking into the 
hearts of the agents. I am talking about whether they are 
trained.
    Mr. Crane. I am not looking at their hearts, either. I am 
talking about the jobs that they do every day in the field for 
you and everybody else in this country, right?
    Senator Harris. Yes. Are you concerned about their 
training?
    Mr. Crane. Oh, I am always concerned about training. We 
always want more training.
    Senator Harris. Have you made a request--and if not, I 
would request that you do make a request--of Secretary Kelly 
that your members are trained on the policy priorities for the 
Department, as it relates to those seven factors? Because, they 
are varied. And, to your point, your folks are barely doing the 
job that they want to do, because they do not have the 
resources. So, there are going to have to be priorities, and 
they are going to need to know what the Agency's priorities 
are, so they can have some level of job satisfaction.
    Mr. Crane. But, priorities do not work the way on the 
street that people in--for example, in the Obama 
administration--I think you are trying to box us into. It does 
not work that way. It is not real life.
    Senator Harris. No, sir. I am talking about these seven 
factors.
    Mr. Crane. I understand what you are talking about, and I 
am talking about----
    Senator Harris. Perhaps, Mr. Chairman, I would ask that----
    Mr. Crane [continuing]. Applying them in the field----
    Senator Harris [continuing]. We could follow up to these 
conversations, and I would like something in writing from these 
witnesses about what training is happening, consistent with 
Elaine Duke's testimony before this Committee, about the 
priorities.
    Chairman Johnson. You will always be able to submit 
additional questions for the record (QFRs), so be prepared to 
do that.
    Senator Harris. Thank you.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
thank all three of you for being here. And, I would like to 
thank all three of you for the work your members do--and know 
how much we appreciate you and the hard job that you do. I 
chaired the Homeland Security Subcommittee on the Senate 
Appropriations Committee for the last several years and was 
down--and I have seen your work on the Northern border. Of 
course, I am from the Northern border. But, I have also seen 
your work on the Southern border.
    And, I agree, the sentiment that I got from your people is, 
they really want to do the job--and the same with ICE on an 
interior mission. Invariably, when I talked to them, they 
wanted to do the job. As you said, they signed up because they 
believe in what they are doing. So, thank you for that, on the 
front end.
    I would like to ask each one of you just your top three 
priorities, in terms of addressing the personnel issues in each 
area for Border Patrol, for CBP, and for ICE--top three things 
you think really work in addressing the personnel issues.
    Mr. Judd. First, we have to have pay parity. That is the 
first thing that you have to give us. If you do not give us pay 
parity, you are always going to have agents looking to other 
Agencies that will pay them more.
    Second, we have to address the morale issue, and that 
morale issue has existed even when we did have pay parity. We 
have to address the morale issue.
    Senator Hoeven. And, the main thing in addressing the 
morale issue----
    Mr. Judd. Accountability from the top down, instead of from 
the bottom up.
    Senator Hoeven. Accountability.
    Mr. Judd. That has to be done. And, the third issue, as far 
as the hiring goes, we have to start administering these 
polygraphs correctly. We have to. If we do not, we are just not 
going to be able to hire people.
    Senator Hoeven. And, the reason for the disparity--the main 
reason for the disparity in the polygraphs is?
    Mr. Judd. I believe that Commissioner Kerlikowske had an 
initiative that he put forward, and I believe that, to show 
that initiative, he had to have a high failure rate. And so, 
now that Commissioner Kerlikowske is no longer around--I am 
sorry, the anti-corruption initiative is what he put forth. Now 
that we are going to have a new Commissioner, I believe that we 
get to hit the reset button--as Senator Heitkamp said--and we 
can actually do it right, because if he was to change the way 
he did the polygraphs, he would have to have admitted that he 
was wrong. And, we know people just do not like admitting that 
they are wrong.
    Senator Hoeven. Right. I understand. OK. That is helpful. 
Thank you. Mr. Reardon.
    Mr. Reardon. Thank you, Senator. I would say the number one 
issue in the ports is the staffing--the number of staff that 
are----
    Senator Hoeven. Staffing numbers?
    Mr. Reardon. Staffing numbers, yes, sir.
    The second thing is to fix the segmented hiring process. I 
think that needs to be tightened up.
    Senator Hoeven. That means what, ``segmented hiring 
process?''
    Mr. Reardon. Well, for example, there are many cases where 
an individual has to go to one location on one day to go 
through some initial interviews and that sort of thing. And 
then, a couple of weeks later--or several weeks later, they 
have to go somewhere else. There is a lot of expense and a lot 
of time that is involved with that. And, to the extent 
possible, where you can get people to be able to go to one 
location and in a more concise period----
    Senator Hoeven. Yes, more coherence in the hiring process.
    Mr. Reardon. Absolutely.
    Senator Hoeven. I got you.
    Mr. Reardon. And then, I would also suggest that the 
polygraph process needs to----
    Senator Hoeven. OK. So, we doubled up on one there.
    Mr. Reardon. Yes, that is a significant problem.
    Senator Hoeven. And, do you like Mr. Judd's general 
explanation of how to address that on the polygraph?
    Mr. Reardon. Yes.
    Senator Hoeven. OK. Mr. Crane.
    Mr. Crane. Sir, just so everybody knows, we do not have a 
polygraph right now, but it is on our horizon. I think they are 
going to implement it in 2018 or something--is the plan. But, 
for our three things--if I understand your question correctly--
on the hiring process, one, I think, for us is that we want the 
Agency to innovate. We want them to look at the best way to do 
this to get these officers that are in a detention center or 
doing data entry out on the street--replace them, maybe, with 
lower-paid administrative type people--I am sorry. Did you have 
a question, sir?
    Senator Hoeven. Yes, well, this is interesting. Innovate, 
and I am trying to catch up with you on what you mean by that. 
So, keep going.
    Mr. Crane. So, what I mean by that, again, is that we have 
too many officers out there now that are sitting in offices 
with a gun and a badge and this limited immigration arrest 
authority--that everybody wants task forces and all of these 
different things--and they are in our offices doing data entry 
all day long. We need to replace them with administrative 
folks, who can do that data entry work for them. Yes, police 
work is a lot of paperwork. They are still going to have a lot 
of paperwork as officers when they make arrests and things like 
that--prosecutions. But, the data entry and some of those other 
things, we can bring in people that are paid less--that do not 
have arrest authority--to take their place and do a lot of that 
work.
    Senator Hoeven. Well, that would indicate that you need 
more non-officers, in essence--you need more administrative 
assistants. That is, I think, a very important point, in terms 
of how you attack the hiring process.
    Mr. Crane. Absolutely. In part, we do need more 
administrative folks. We need a shift in our perspective, 
though, about how we get work done in general. Right now, I 
think ICE is just wanting to do things as business as usual. We 
are saying, ``No, let us take a look at what we do and how we 
do it--and if we can do it better.''
    Senator Hoeven. So, I think you are making a strong point 
here. Is that happening?
    Mr. Crane. No.
    Senator Hoeven. I mean, is the Agency looking at saying, 
``Hey, it is the mix of workers that can make a real difference 
here, too. We can make our resources go further, and we can 
make our agents much more effective if they are on the street 
doing their job and they have some administrative backup or 
assistance that gets the clerical aspects done?'' I mean, that 
is true of every law enforcement agency, so I think that is a 
very compelling point--you are talking to General Kelly, the 
Administration, DHS, and, obviously, in ICE.
    Mr. Crane. And, we have conveyed this very briefly to 
General Kelly last week, but, to be clear, we are still going 
to need more officers, in addition----
    Senator Hoeven. I understand. I am not saying that you do 
not need more officers.
    Mr. Crane. Right.
    Senator Hoeven. I am just saying that the mix you hire 
matters. And, it seems to me that that goes to the point the 
Chairman, our illustrious leader here, just made a minute ago. 
And, that is, instead of passing a law, we can help you become 
more effective with those kind of changes.
    Mr. Crane. Right. And, I think that, in that innovation, we 
need to look at expanding the duties of the ERO officers, so 
that they can better perform their mission out on the street.
    There are a lot of things that we could be doing right now, 
but I think there is kind of this attitude at ICE that 
everybody needs to stay in their lanes--HSI does that, so ERO 
should not. And, trust me, there is plenty of criminality out 
there to go around for everybody. We could have something, 
where there is a right of first refusal or something for HSI, 
but it does not need to mean that everybody stays in their 
lanes and they are in these little boxes, right? So, there is a 
lot that we need to do--so that is what I mean by innovation.
    The other two things, I think, that we need to make sure 
that we do through this process, is not only maintain our 
standards, but I think, in a few areas, we need to up them. 
And, the other part of that is, we need the time to do this 
right. Yes, we can run some people through the academy fairly 
quickly. We know that. But, there is a sweet spot in there, and 
we need to hit that. And, we do not want all of these newbies 
coming out in the field too fast, because, when they come out 
of the academy--and I am not saying anything bad about the 
academy--the training that they get--but they do not know a 
whole lot. And, they are going to have to be shadowing somebody 
for quite a while before they really know what they are doing.
    And so, that is kind of what we are looking for: 
innovation, maintaining our standards--maybe raising them--and 
having the time to do it right.
    Senator Hoeven. Very good. I think, in all cases, your 
recommendations are extremely helpful. And, it seems to me, if 
followed, they will make a real difference for the Agency. 
Thank you.
    Mr. Crane. Thank you.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman and Ranking Member 
McCaskill. And, thank you all for testifying today.
    Mr. Judd, it is good to see you again, and thank you for 
your service on Montana's border. It is very much appreciated.
    You all touched on some similar needs--and that is to 
enforce existing law. Mr. Judd, under the last Administration, 
the Border Patrol had disappointingly low morale. In fact, you 
mentioned it was the lowest of the three Administrations you 
had served under. In addition to pay and polygraph challenges, 
my understanding is, one of the root causes has been the 
inability to enforce existing laws.
    How will President Trump encouraging law enforcement to 
enforce the law help morale?
    Mr. Judd. First off, Border Patrol agents signed up for a 
job to be law enforcement agents. They did not sign up to be 
humanitarian specialists. That is the first thing that we have 
to look at. In enforcing the laws and actually allowing us to 
do our jobs, you are allowing the employee to do what the 
employee signed up for in the first place. A lot of these 
individuals grew up always wanting to be in law enforcement. 
They wanted to serve and protect the public. And, if we allow 
them to do that, morale will increase exponentially.
    In fact, Senator Daines, I will tell you that there has 
been a huge spike in the morale--on November 8th, there was a 
huge spike in the morale of the Border Patrol, simply because 
we knew that this new Administration was going to actually 
allow us to do our jobs--take the handcuffs off of us and put 
the handcuffs on the criminals.
    Senator Daines. So, I know recruitment can be a challenge. 
What will that mean for recruitment and, frankly, probably most 
importantly, our national security?
    Mr. Judd. Oh, I think that it is going to help with 
recruitment. But, I will tell you right now, we do not have a 
problem with recruitment. We have plenty of people that want to 
be Border Patrol agents. We have a problem hiring those 
individuals, once they apply for the job.
    Senator Daines. And, why is that?
    Mr. Judd. Several factors. The main factor is the three 
times the national average of polygraph failures. We just do 
not administer the polygraph correctly.
    Senator Daines. Is that fixable?
    Mr. Judd. It is. It is fixable. And, now that we can hit 
the reset button and now that we have new individuals, we can 
actually fix the polygraph.
    Senator Daines. I want to switch gears and talk about drug 
flow. Virtually all of the methamphetamines in Montana are now 
coming from south of the border and are trafficked through our 
interior. We have seen the price drop in half with this influx, 
and now more than 90 percent of all drug offenses in Montana 
are methamphetamine-related. This impacts our communities, 
increasing violent crimes. We are seeing a disturbing rise in 
child endangerment and foster care caseloads. It is a tragic, 
negative spiral that we are seeing.
    Mr. Crane, in your testimony, you mentioned that interior 
enforcement is the key to effective border security. In 
addition to more personnel, what can we do to stop the movement 
of drugs?
    Mr. Crane. Well, sir, I think, for us, really, it is just 
always a big-picture thing, on the ERO side. That is something 
that we could use--is Title 21 authority, probably, at ERO--and 
somebody to let us be more involved in drug prosecution. We 
have, basically, through policy within the Agency, this little 
turf war going on, where they do not want ERO agents doing a 
lot of different types of things, I think, like drug 
interdiction and worksite firearms prosecution. While some of 
it does happen in a limited amount, it is very rarely. And so, 
we need to expand the duties of these ERO officers. They are 
fully capable of doing it, and they are out on the street 
coming in contact with things.
    But, in addition to that, when we start enforcing a law on 
these businesses and on the interior, sending that message to 
the rest of the world, I think what you are going to find is 
that law enforcement--from the patrol--from everybody sitting 
here--we are going to be able to get more and more focused as 
time goes on--on things like drug interdiction, because we are 
going to be dealing less and less with just this mass flow 
right now of illegal immigration coming into the country.
    So, I am not saying it is going to happen overnight, but I 
think, from our perspective, we are going to slow down this 
immigration flow--and it is going to make it easier for all of 
us to concentrate on issues like that.
    Senator Daines. That is a pretty important consequence to 
dealing with immigration flow, in terms of the resources now to 
stop the drug trafficking, which, as we see, is just 
devastating our communities across Montana as well as across 
this country. I appreciate that insight.
    Mr. Judd. Senator, may I jump in just really quickly on 
that?
    Senator Daines. Yes, please, Mr. Judd.
    Mr. Judd. One of the things that we have to do is, we have 
to be proactive in our intel. Our intel needs to be driving the 
operations and how we try to interdict the drugs before they 
get into the United States. We do not want Mr. Crane and his 
officers to have to even deal with the drugs on the interior. 
What we need to do is, we need to stop that flow at the border. 
And, that has to be done by stopping illegal immigration, 
because, when we tie our hands up--when Border Patrol agents' 
hands are tied in dealing with people that are crossing the 
border and asking for asylum--we create the holes that allow 
these criminal cartels to bring the drugs across the border. 
So, we have to be proactive in our intel to address this issue.
    Senator Daines. Thank you for that insight.
    I want to shift gears now and talk about sanctuary cities. 
Sanctuary cities willfully violate Federal law. And, they allow 
illegal immigrants to remain in the United States. These cities 
forbid their local law enforcement from sharing information on 
illegal immigrants with ICE or complying with an immigration 
detainer.
    Mr. Crane, what challenges does this create for your job?
    Mr. Crane. Oh, the challenges are many, but, I think, most 
importantly, it is so much easier and more effective for us to 
apprehend these individuals while they are in somebody else's 
custody. They have been arrested by somebody else. They place 
the detainer, they get done with them and turn them over to us, 
and we are putting them into proceedings or making a removal 
happen. So, it is a ``day and night'' difference.
    Then what happens, though, with these hundreds and 
thousands of people that do not get turned over to us in 
sanctuary cities--instead our officers are out on the street 
chasing ghosts. These guys rarely leave much of a fingerprint. 
And, yes, we have people out there, like the U.S. Marshals 
Service, that are out looking for these guys. But, it is so 
much more time-intensive. We may never catch them again, until 
they actually get arrested for something else.
    Senator Daines. So, let me, if I could, ask one final 
question. Believe it or not, in my home State of Montana, there 
are some Montana cities--including my home town--looking at 
this--considering enacting sanctuary city policies. In fact, we 
have two Congressional candidates right now. We only have one 
that is for sanctuary cities.
    What advice do you have for those elected officials?
    Mr. Crane. They need to open their eyes up and look around. 
And, I know we see something in the press, every once in a 
while, about--and one of the Members brought up this morning 
the incident in Maryland. That type of stuff is happening all 
over the country every day. And, like I said earlier in my 
testimony, everything that the Members here say has a 
consequence. And, these folks back in your home State, what 
they do has a consequence, too--and that consequence is that 
they are stopping law enforcement and they are putting bad guys 
back on the street, who are going to commit crimes and who are 
going to victimize and harm people in their communities. And, 
there are no ways around it. Please cooperate with law 
enforcement. Please follow the laws of our country. That would 
be my message.
    Senator Daines. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Daines.
    I just want to underscore the point. Mr. Crane, you said 
that it is easier for your agents to apprehend these 
individuals. Can I say that it is safer?
    Mr. Crane. Oh, absolutely.
    Chairman Johnson. It is a whole lot safer. You are going to 
put your agents' lives on the line less often, if you are doing 
it this way?
    Mr. Crane. Absolutely.
    Chairman Johnson. Again, yes, it is easier. I think it is 
more important to say that it is safer.
    Mr. Crane. Absolutely correct, sir.
    Chairman Johnson. Senator McCaskill would like to make a 
comment.
    Senator McCaskill. Yes, I just wanted to--Mr. Judd, on the 
polygraph thing--I have tried to look at this. As you know, 
most law enforcement--FBI uses a polygraph. The use of the 
polygraph is very widespread in any law enforcement employment 
situation. What I learned is, the difference is that the FBI 
does it at the end. You all do it at the very beginning. So, a 
lot of the people who are weeded out during the process of a 
background investigation or other vetting of a potential agent 
or police officer--that has already occurred, before the 
polygraph. And, one of the reasons that was given as to why the 
polygraph was at the beginning is, you save all of those 
resources, if you weed out at the beginning, as opposed to 
going through all of that and doing the polygraph at the end. 
Does that have any validity, as far as you are concerned?
    Mr. Judd. It really does not. But, simply put--and, again, 
I am not advocating not having a polygraph.
    Senator McCaskill. Right.
    Mr. Judd. We have to have a polygraph.
    Senator McCaskill. Right.
    Mr. Judd. We need it. In the past, we have hired 
criminals--I am sorry, we have hired convicted felons into the 
Border Patrol.
    Senator McCaskill. Right.
    Mr. Judd. So, we do have to have a polygraph. But, where we 
do the polygraph--whether we do it on the front end or whether 
we do it on the back end--if it is not administered correctly, 
it does not matter.
    Senator McCaskill. Right.
    Mr. Judd. We are just not going to get employees into the 
service.
    Senator McCaskill. And, Mr. Crane, finally, the 
heartbreaking case of the murder in Missouri--that was a 
situation that was not a sanctuary city. ICE was contacted, and 
ICE did not get there. ICE ended up sending the paperwork to 
the wrong jail. I mean, it was a series of errors that was not 
for lack of willingness to cooperate by local law enforcement, 
but it was a problem with ICE being there when they were 
called. So, I hope you will continue to inform the Committee 
about how we can help with that issue, because that woman's 
husband would still be alive if ICE had responded timely to the 
request from law enforcement in that case.
    Mr. Crane. Yes, ma'am. And, I currently do not have all of 
the finite details about that situation, but, if you do, I 
would be happy to take a look at it.
    Senator McCaskill. That would be great. ICE was not at the 
hearing. I had hoped ICE would be at the hearing to talk about 
the problems with that case. But, they were not, and so, 
hopefully--we will be glad to share those details with you. 
And, maybe, you can shed some light on what went wrong and why 
ICE did not respond in a way that was timely.
    Mr. Crane. I would love to do it. And, if need be, we will 
reach out and ask other questions and see what else we can find 
out.
    Senator McCaskill. And, I think it would be great if you 
could help facilitate--I do not think anybody in ICE has ever 
told this woman that they are sorry.
    Mr. Crane. I would love to.
    Senator McCaskill. OK, great. Thank you, Mr. Crane.
    Mr. Crane. Yes, ma'am.
    Chairman Johnson. Thank you, Senator McCaskill.
    Again, I want to thank all of our witnesses. I think, from 
just the standpoint of providing us action items that I think 
can have a real impact and real effect, this is probably one of 
the best hearings we have held--certainly, as I have been 
Chairman in the last couple of years. And, it does not surprise 
me. I come from a manufacturing background. If I wanted to 
figure out what was happening on the shop floor, I went to the 
shop floor. I talked to the actual machine operators. And, 
because my managers knew I was going to do that, they also 
talked to the people on the shop floor.
    So, I want to set up a process. I am 100 percent serious 
about this. I know that we have gotten great input from you. 
You have just demonstrated it here during this hearing. We will 
work with this Committee up front--immediately--to lay out all 
of these crazy and insane policies, so you can do your job more 
effectively and, Mr. Crane, more safely.
    So, again, I want to thank you for your service. I know 
that you are--all of you and all of the people that work with 
you in your unions--are risking their lives trying to enforce 
our laws. The least we can do is support you and not denigrate 
your service as well as make sure that whatever policies we 
enact help you do your jobs, increase your morale, and keep you 
safe.
    So, with that, the hearing record will remain open for 15 
days, until April 6th at 5 p.m. for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------         
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                 <all>
</pre></body></html>
